<html>
<title> - SENIOR COMMUNITY SERVICE EMPLOYMENT: REAUTHORIZATION OF THE OLDER AMERICANS ACT TITLE V</title>
<body><pre>[Senate Hearing 109-654]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-654
 
                  SENIOR COMMUNITY SERVICE EMPLOYMENT:
                 REAUTHORIZATION OF THE OLDER AMERICANS
                              ACT TITLE V

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RETIREMENT SECURITY AND AGING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING THE REAUTHORIZATION OF THE OLDER AMERICANS ACT TITLE V, 
            FOCUSING ON SENIOR COMMUNITY SERVICE EMPLOYMENT

                               __________

                             MARCH 28, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-804 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                               __________

             Subcommittee on Retirement Security and Aging

                      MIKE DeWINE, Ohio, Chairman

JOHNNY ISAKSON, Georgia              BARBARA A. MIKULSKI, Maryland
ORRIN G. HATCH, Utah                 JAMES M. JEFFORDS (I), Vermont
JEFF SESSIONS, Alabama               JEFF BINGAMAN, New Mexico
PAT ROBERTS, Kansas                  HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                   Karla L. Carpenter, Staff Director

              Ellen-Marie Whelan, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, MARCH 28, 2006

                                                                   Page
DeWine, Hon. Mike, Chairman, Subcommittee on Retirement Security 
  and Aging, opening statement...................................     1
Bishop, Mason M., deputy assistant secretary for Employment and 
  Training, U.S. Department of Labor; accompanied by John Beverly 
  III, administrator, Office of National Programs, Employment and 
  Training Administration, U.S. Department of Labor..............     3
    Prepared statement...........................................     9
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     4
Salazar, Ignacio, president and chief executive officer, SER-JOBS 
  for Progress National, Inc.; Kent Kahn, regional communications 
  specialist, Experience Works Ohio; and Anthony R. Sarmiento, 
  executive director, Senior Service America, Inc................    14
    Prepared statements of:
        Mr. Kahn.................................................    17
        Mr. Sarmiento............................................    24

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Prepared statements of:
        Kennedy, Hon. Edward M., a U.S. Senator from the State of 
          Massachusetts..........................................    31
        Mikulski, Hon. Barbara A., a U.S. Senator from the State 
          of Maryland............................................    32
        Clinton, Hon. Hillary Rodham, a U.S. Senator from the 
          State of New York......................................    34
        National Council On Aging................................    36
    Response to questions of Senator Kennedy by:
        Mason Bishop.............................................    38
        Ignacio Salazar..........................................    46
        Kent Kahn................................................    46
        Tony Sarmiento...........................................    50
    Response to questions of Senator Mikulski by:
        Mason Bishop.............................................    40
        Kent Kahn................................................    46
        Tony Sarmiento...........................................    50
    Response to questions of Senator Murray by:
        Mason Bishop.............................................    45
        Kent Kahn................................................    48
        Tony Sarmiento...........................................    52

                                 (iii)




   SENIOR COMMUNITY SERVICE EMPLOYMENT: REAUTHORIZATION OF THE OLDER 
                         AMERICANS ACT TITLE V

                              ----------                              


                        TUESDAY, MARCH 28, 2006

                                       U.S. Senate,
Subcommittee on Retirement Security and Aging, Committee on 
                    Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:36 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Mike DeWine, 
chairman of the subcommittee, presiding.
    Present: Senators DeWine and Murray.

                  Opening Statement of Senator DeWine

    Senator DeWine. Good afternoon. We welcome all of you to 
the Subcommittee on Retirement Security and Aging's hearing on 
the reauthorization of the Older Americans Act. Today, we will 
be focusing on Title V of the Older Americans Act--the Senior 
Community Service Employment Program.
    I want to thank Senator Mikulski, the subcommittee's 
ranking member, for her interest in these issues. The Senator 
has asked that I let everyone know that she is not going to be 
able to attend today's hearing. She is disappointed she cannot 
be here, but President Bush just asked her to attend a small 
meeting at the White House on America's Agenda for Innovation 
and Competitiveness. Because this matter is so important to 
Senator Mikulski and our Nation, she feels she needs to be 
there. As all of you know, this issue is very important to her, 
and we will continue to work on reauthorizing the Older 
Americans Act.
    As many of you may remember, during the reauthorization 
process in 2000 Senator Mikulski and I worked on this bill, and 
I look forward to working with her again on the Older Americans 
Act.
    Just over a month ago, we had many of the same people who 
are here in this room give their remarks on reauthorization at 
a roundtable on the Older Americans Act. Since that time, we 
have received the recommendations for reauthorization from both 
the Department of Labor and the Department of Health and Human 
Services. I look forward to working with all of you on your 
recommendations as we move forward and move toward 
reauthorization of this very important piece of legislation.
    As we know, older Americans are a vital and rapidly growing 
segment of our population. Over 36 million people living in the 
United States are over the age of 65, accounting for about 12 
percent of the population of this country. The Census Bureau 
projects that 45 years from now, people 65 and older will 
number nearly 90 million in the United States and comprise 21 
percent of our population. Further, we know that 4.6 million 
people aged 65 and older are still employed.
    The Older Americans Act is an important service provider 
for these Americans. The SCSEP program is the only one in the 
act administered by the Department of Labor. It is designed to 
employ older Americans and supplement their income, while 
providing their communities with needed services.
    This program is working well. However, that is not to say 
that it cannot be improved. We need to seriously consider the 
new generation of older Americans and what new and different 
job opportunities they may want in the future.
    This afternoon, we will hear from the Department of Labor 
on their recommendations for the reauthorization of title V. We 
also will hear from three organizations that provide title V 
services. Unfortunately, we were unable to find a State to 
testify, but I do want to note that States do have a large role 
in this program.
    In 1999, this subcommittee's last hearing on title V, we 
were fortunate to have representatives from the States of both 
Florida and Arkansas. I hope that States will remain engaged in 
this reauthorization process as they have been in the past.
    I look forward to the testimony today. I expect that we 
will hear both what does and what does not work in title V. As 
the population continues to age in America, we must view this 
program through new eyes to ensure that it is providing the 
services necessary to support the demands of tomorrow.
    As I mentioned before, the reauthorization of the Older 
Americans Act is the top priority of this subcommittee. I 
welcome the opportunity to work with the witnesses here today 
and with my colleagues here in the Senate to reauthorize a 
program that meets the needs of today's and tomorrow's older 
Americans.
    We have two panels today. The first panelist will be Mason 
Bishop, the Deputy Assistant Secretary for Employment and 
Training at the Department of Labor. We welcome you, Mr. 
Bishop. In his position, he is responsible for overseeing key 
workforce investment programs, as well as developing and 
implementing workforce policies and priorities.
    Mr. Bishop is accompanied today by John Beverly, who is 
currently the administrator of the Office of National Programs. 
Mr. Beverly, we welcome you as well. In this role, Mr. Beverly 
provides direction to the program offices for Foreign Labor 
Certification, Seasonal Farm Works, Older Workers, Native 
Americans, and Disability and Workforce Programs. Mr. Bishop 
will be providing the timed testimony, and Mr. Beverly will be 
available for any technical questions that we have. Thank you 
both for being with us.
    Mr. Bishop, I look forward to your testimony and to working 
with you and assistant secretary DeRocco on the reauthorization 
of title V. You may begin.

 STATEMENT OF MASON M. BISHOP, DEPUTY ASSISTANT SECRETARY FOR 
EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR; ACCOMPANIED 
    BY JOHN BEVERLY III, ADMINISTRATOR, OFFICE OF NATIONAL 
    PROGRAMS, EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. 
                      DEPARTMENT OF LABOR

    Mr. Bishop. Mr. Chairman, thank you so much for this 
opportunity, and I do think actually it is relevant that 
Senator Mikulski is talking about the Innovation Agenda because 
it really is relevant to the discussion we are going to have 
today, which is all about how do we ensure that we have a 
competitive workforce in a global economy.
    I am pleased to be able to come before you today and talk 
about title V and the reauthorization of the Older Americans 
Act. As you noted, in May 2005, Employment and Training 
Administration Assistant Secretary Emily Stover DeRocco did 
share reform principles during testimony before this 
subcommittee at a hearing on reauthorization of title V. The 
Administration's proposal is based on those principles, and I 
do want to reiterate those as part of my oral comments today.
    First, we do believe that we should streamline the program 
structure, and the Department is proposing to eliminate the 
unnecessary bifurcated nature of this program whereby some 
funds go to States and others are administered nationally. We 
believe this is a very inefficient way to run a program. 
Instead, we propose allocating funds for the SCSEP program to 
States according to a statutory formula. Each State would then 
compete their funds among nonprofit entities, for-profit 
entities, and agencies of State government to operate the 
program in their State.
    Now, some grantees have expressed concern with having to 
compete on a state-by-state basis, so an alternative approach 
might be conducting a national competition on a state-by-state 
basis. We do maintain separate grant awards for Indian and 
Native Americans and Asian-Pacific Islander organizations under 
our proposal.
    Second, we do propose increasing the minimum age for 
eligibility. Our proposal increases this minimum age to those 
that are 65 and older. Because people ages 55 to 64 are still 
of working age, their employment and training needs are best 
met through the One-Stop Career Center system, of which SCSEP 
is a partner. Limited SCSEP resources should be targeted to 
older Americans. We also propose that 1.5 percent of 
appropriated SCSEP funds be reserved for outreach to businesses 
and older workers, demonstrations and pilots, training and 
technical assistance, and dissemination of best practices.
    In addition to changing the age requirement, our proposal 
would clarify the income eligibility standard and stipulate 
what participant income should count when the income 
eligibility test is applied. Because this particular issue has 
created confusion during the past couple of years, we are 
looking to Congress to provide clarity through reauthorization.
    Third, we do believe the program needs to be more focused 
on employment outcomes, and our proposal would enhance the 
employment focus as follows:
    First, we would increase the limit on the percentage of 
grant funds grantees may spend on training.
    Second, we would authorize occupational training before or 
concurrent with community service.
    Third, we would propose limiting the program to 2 years, as 
individuals transition from community service to unsubsidized 
employment.
    And, fourth, we would recommend eliminating fringe 
benefits, including pensions.
    Next, we would also strengthen performance accountability 
by using the common performance measures that most workforce 
programs currently are under, including SCSEP, which will hold 
all grantees accountable for entered employment, retention in 
employment, and earnings. Grantees will be authorized to track 
and report on additional outcomes, such as the provision of 
community services, if they so choose, though they would not be 
federally required to do so.
    In conclusion, this legislative proposal for 
reauthorization will streamline the SCSEP program, strengthen 
its ability to meet employer needs for skilled, experienced 
workers, and allow grantees to tailor services to meet the 
needs of older workers. Reauthorization as proposed will also 
better integrate SCSEP services with the Workforce Investment 
Act services to more effectively serve these participants.
    In closing, Mr. Chairman, this concludes my prepared 
statement, and I do submit for the record my extended written 
testimony. We look forward to working with you on reauthorizing 
the Older Americans Act, and we are hopeful that by working 
together this important legislation can be enacted later this 
year. And I would be happy to answer any questions you or the 
committee might have.
    Senator DeWine. Mr. Bishop, thank you very much.
    Senator Murray has joined us. Senator Murray, thank you 
very much. Do you have any opening comments you would like to 
make?

                  Opening Statement of Senator Murray

    Senator Murray. If I could, and unfortunately, it is a busy 
afternoon, as you well know, but I do want to thank both you 
and Ranking Member Mikulski for your efforts on reauthorization 
of the Older Americans Act. I think this is the third 
subcommittee hearing on this that is being held in preparation 
for authorization. I am really hopeful that we can work 
together in a bipartisan manner as we did back in 2000 to get a 
good, clean reauthorization bill this year. It simply cannot 
take us 5 years again to get this done, as it did the last time 
the authorization expired.
    I know the focus of today's hearing is an important 
component of the Older Americans Act. Title V, of the Senior 
Community Service Employment Program, has been a success. It 
has served a dual purpose in providing part-time employment for 
older workers while staffing key community service programs. 
And many of these programs depend on volunteers and have a 
shoestring budget, but placing older workers at these job sites 
provides important community services and invaluable jobs for 
older workers.
    I do want to say that I am very troubled by the actions 
that were taken by the Department of Labor on March 2nd, which 
I worry can seriously undermine the success of this program. It 
appears to me that the Department is trying to do, through the 
regulatory process, what it could not do in Congress, which was 
turn this into a block grant program. And one of the reasons 
that reauthorization was delayed for 5 years was due to the 
efforts that many saw was a dismantling of this program and 
consolidating it into a block grant without Federal, State, and 
local job training programs.
    The Department of Labor I think is disregarding the intent 
of Congress and jeopardizing the reauthorization process, and I 
hope the Department will withdraw these regulations and give 
Congress time to reauthorize the Older Americans Act and do it 
in a way that we know our communities support.
    Senator DeWine. Senator Murray, thank you very much.
    Mr. Bishop, let me kind of follow up on that. The focus of 
this hearing is, of course, the reauthorization of the title V 
program. However, I do want to begin by addressing and moving 
forward from the issue of the recent Solicitation for Grant 
Application, SGA, that the Department did announce on March 
2nd. There have been a number of concerns raised with the 
timing and the content of this SGA, which I look forward to 
continuing to work on with your office.
    Let me just ask you why the Department feels it is 
necessary to compete this award now before title V is 
reauthorized.
    Mr. Bishop. Thank you, Senator, and let me clarify real 
quickly that it is a Solicitation for Grant Applications. It is 
not a regulatory action that we are talking about. The 
regulations were finalized back in 2004, and so this is just a 
solicitation to recompete the program in terms of who would 
administer the program.
    First let me say that we fundamentally believe at the 
Department of Labor that competition is a good thing amongst 
grant programs and that it does spur innovation. And, in fact, 
in 2003, when we competed the program really for the first time 
in many, many years, we have four organizations in this room 
today that otherwise would not be here had we not competed the 
program. We had four organizations--Easter Seals, SER-Jobs for 
Progress, the National Able Network, and Mature Services--who 
each now have the opportunity to serve older workers and we 
believe are doing very well as a result because we competed the 
program 3 years ago. Prior to that, none of these four 
organizations were direct grant national organization grantees 
of us.
    With that said, we do believe in looking at the intent of 
the law and in looking at the court case that came as a result 
from the U.S. District Court of the District of Columbia in 
2003, that clearly competition is allowed under this law and 
under this framework. In fact, if you look at Section 514 of 
the law, it talks about grants being for a 3-year period of 
time. We competed the program in 2003, and now it is 2006, 3 
years later, and, therefore, we believe the intent is there.
    One of the things a number of grantees raise or those who 
feel that our action is arbitrary and capricious is that they 
believe that the law creates a competitive environment only 
when a grantee is not performing, and that clearly is not the 
case. Again, I would harken to the court case from the U.S. 
District Court back in 2003 that said that competition is 
something that is a tool of the Secretary in terms of awarding 
grants and that an entitlement to any kind of grant program is 
not something that is available under this particular program.
    So, with that said, we do believe that, given the fact that 
it is 3 years later, it was time to recompete the program. Now, 
we understand with that said that there are some concerns that 
have been raised as a result of competing the program. It is 
not our intent to withdraw the SGA; however, we are looking at 
ways that perhaps we can accommodate some of the concerns that 
have been raised by yourself, others, and those amongst the 
grantee community. But, again, we believe there are other 
organizations, including the organizations who are current 
grantees, that could provide a lot of innovation, really good 
services, and new techniques and service delivery to provide 
services to many older workers in our Nation.
    Senator DeWine. Mr. Bishop, the Department of Labor 
proposes changing the age of eligibility for the program to 65, 
eliminating everyone in the 55 to 64 age bracket, with minor 
exceptions, which I guess have not yet been defined. Each year, 
about half of all people served by the program are in this age 
range. How do you feel this recommendation improves services to 
seniors? And what sort of evidence or data is there to show 
that one-stops are performing well and serving older workers
    Mr. Bishop. Well, I think given the fact that the framework 
of employment and training service delivery in the United 
States right now is this framework of One-Stop Career Centers, 
of which, Mr. Chairman, you had much work in terms of the 
Workforce Investment Act of 1998, obviously, that this network 
of One-Stop Career Centers must be able to serve older workers. 
In fact, only about 1 percent of the eligible population can be 
served under SCSEP, so given that circumstance, we have to 
figure out ways that the One-Stop Career Center system can 
serve those age 55 to 64, regardless of whether they are 
eligible under SCSEP or not.
    Now, what we tried to do is set a framework where we kind 
of looked at the big picture of all the employment and training 
services, and we do believe that given a program where there 
are finite dollars and there are needs, that we have to make 
some tough public policy decisions around who we target and who 
we serve. Our recommendation was, given the fact that we have 
this extensive network of One-Stop Career Centers, of which 
there are about 3,500 in the country right now, they are able 
and positioned to be able to serve older workers.
    Now, under our WIA adult program, about 6 percent of the 
people served right now are in the 55 to 64 age range, about 12 
percent in the dislocated worker program, and the trade 
adjustment assistance program also serves older workers. So 
sometimes there are blanket statements made that One-Stops 
can't serve them or they are not serving them, and that just is 
not the case. There are individuals in that age range coming in 
for services. We believe we can work to enhance that.
    I would say one other thing. The General Accounting Office 
actually pointed out in a 2003 study that one reason they feel 
that One-Stop Centers may not be serving older workers as much 
is because of performance measures, and we actually have worked 
very hard on our performance measures. On February 17th of this 
year, we actually issued this training employment guidance 
letter changing the earnings measure, so it is no longer a pre- 
and post-earnings that we are looking at, but it is an average 
earnings gain, and we have gotten tremendous positive support 
for that change, and we think actually that will, based on what 
the GAO and others have said, enhance that opportunity for 
older workers to be served through the One-Stop Career Centers.
    Senator DeWine. Senator Murray.
    Senator Murray. Well, thank you, Mr. Chairman.
    As you saw from my opening remarks, I do have some very 
serious concerns about the Department's proposed changes that 
were announced March 2nd. The outcome of these changes could be 
a major disruption for low-income older workers and community 
service networks that depend upon these workers. We know that 
the transition after the 2003 competition resulted in fewer 
people served, fewer people placed in jobs, higher participant 
unit costs for at least the first year after the competition. I 
believe the disruption will be far greater under your proposal, 
and I am concerned also about the impact on national groups 
that serve minority populations.
    Can you talk with us what kind of transition you envision 
if these regulations are to occur? July 1st is not that far 
away.
    Mr. Bishop. Sure. Again, it is a grant competition that we 
have proposed, and it is very similar to the grant competition 
we had in 2003. There are some fundamental changes that we made 
in that we are trying to eliminate some of the patchwork 
services that have gone on. We believe there are economies of 
scale that can be had when you have, on a geographic basis, a 
particular national organization serving older workers within 
that geography.
    In 2003, many of the same kinds of circumstances and many 
of the same kinds of concerns were raised that there would be a 
lot of older workers who wouldn't be served, that we wouldn't 
be able to accommodate the transition. In fact, what the 
evidence has shown is that it worked very, very well.
    Now, there are glitches along the way that happened, but we 
have what are called SCSEP recapture funds to assist with 
transition costs. We have technical assistance providers 
prepared to assist that. Mr. Beverly and his staff are on hand 
to provide on-the-ground technical assistance.
    Senator Murray. But you do agree that there could be some 
real challenges. Are you considering any kind of delay of 
implementation?
    Mr. Bishop. As I said, Senator, we are looking at what kind 
of accommodations we could make in terms of the solicitation, 
given some of the grantee concerns. We do plan at this point on 
moving forward with the competition. We do believe that a lot 
of the concerns raised about transition are somewhat 
exaggerated.
    Senator Murray. Well, I think that many of us are very 
concerned that the 2000 reauthorization act had a very 
different feel to it. Can you explain to me how your proposed 
changes adhere to that act?
    Mr. Bishop. In terms of our reauthorization changes rather 
than the solicitation?
    Senator Murray. Well, in terms of the rule changes that you 
have put out, how do you explain the differences between the 
reauthorization and what you are doing administratively?
    Mr. Bishop. Well, the rule changes--they are not regulatory 
changes we have put out. It is a competition for who 
administers the program, just like we would do in any other 
grant program that is of a national basis that has a 
competitive feature.
    As I said, in 2003, we did a competition. We successfully 
implemented that competition. There was a court case out of the 
U.S. District Court here in the District of Columbia whereby 
the Department of Labor and Secretary Chao were sued over our 
ability to compete these funds, and the judge clearly stated 
and the court has clearly stated that competition is completely 
consistent with the Older Americans Act amendments of 2000.
    Senator Murray. Well, I do think you will hear from many 
members of our committee that we are very concerned about this. 
I think we need to have an ongoing conversation about, if you 
are going to implement this, how we make sure that we speak 
first in terms of reauthorization and make the wishes of 
Congress clear. So I would suggest you work closely with this 
committee.
    Mr. Bishop. Yes.
    Senator Murray. Thank you, Mr. Chairman.
    Senator DeWine. Your reauthorization proposal includes 
expanding the program to reach beyond community service. To 
what degree is that already allowed or happening? And how do 
you think this will improve employment outcomes for 
participants?
    Mr. Bishop. That is a great question, Mr. Chairman. Again, 
one of the things that some have been concerned about is that 
our proposal eliminates community service, and it does not do 
that.
    We believe that there are many avenues by which 
individuals, including older Americans, can gain the kinds of 
skills they need in order to become successfully employed. And, 
in fact, when you look at this law, it is really kind of a 
balancing act, in fact. It is looking at the individual and 
what employment outcomes he or she may be able to utilize based 
on service, and it has this community service component. And I 
think a lot of what these discussions around reauthorization 
hinge on are the balance between that individual outcome and 
the community service desires and outcomes of the program.
    Currently, the law basically states that no less than 75 
percent of funds could be spent on things other than wages and 
the community service component of the program. Our proposal 
would bump that down to 65 percent, really giving flexibility 
to grantees to be able to utilize that additional 10 percent 
for avenues other than just community service.
    The reason we believe in this particular approach is 
because, again, given the economic circumstances we are facing 
in our country right now, who is to say there are not other 
kinds of avenues by which individuals can gain employment 
success? For instance, maybe there is an employer that would be 
willing to have an internship opportunity where they would pay 
50 percent of the wage and the grantee, the SCSEP grantee, 
could pay 50 percent of the wage, and at the end of 6 months, 
the employer hires the individual. There is on-the-job training 
kinds of avenues. We just believe there ought to be more 
flexibility in the law to still allow, obviously, for a vast 
majority of the funds to be used for community service, but 
also provide the kind of flexibility to grantees so that there 
may be other avenues of training to help individuals realize 
self-sufficiency and higher wages and opportunities.
    Senator DeWine. Mr. Bishop, your recommendations propose 
allocating the title V funds to the States to sub-grant 
services. How are the placement rates of States compared to 
those of the national grantees? And are they doing a better job 
right now overall?
    Mr. Bishop. Well, it depends. I mean, generally, some 
States have lower performance than grantees, but, again, I 
think that there is maybe a misperception of what our proposal 
is. We are not proposing to give the moneys to States and have 
them run the programs. Our proposal essentially takes the 
roughly $96 million that the States get, the $341 million we 
compete nationally, and say that that really is not an 
efficient way to run the program, it does not make a lot of 
sense. We believe there is more money going to administrative 
overhead as a result of, as I said in my testimony, the 
bifurcated nature of this program.
    We essentially are saying let's bring those funds together. 
We would allocate them to the States to run a competition at 
the State level. Our assumption is many of the organizations 
that are currently national grantees would be the entities 
running programs under a competition at the State level.
    As I also mentioned in my oral remarks, as a result of some 
concerns about having to go to 50 States to bid, an alternative 
might be that we run a national competition but it be done on a 
state-by-state basis. We do this in our current Migrant and 
Seasonal Farm Worker Program right now, and it is another 
avenue by which we look at programs. But we do believe that 
there are economies of scale to be reached and better and 
enhanced performance to be reached by having a program that is 
not this dual nature and, rather, one where there is a 
responsible entity per State. And, again, as I said, many of 
them would be the nonprofits who are already running these 
programs to be able to do so.
    Senator DeWine. Well, we appreciate your testimony.
    Mr. Bishop. Thank you.
    Senator DeWine. We look forward to working with you.
    Mr. Bishop. I appreciate the opportunity. Thank you, 
Senator.
    Senator DeWine. Thank you very much.
    [The prepared statement of Mr. Bishop follows:]
                 Prepared Statement of Mason M. Bishop
    Mr. Chairman and members of the subcommittee, I am pleased to have 
the opportunity to testify before you today to discuss the 
reauthorization of the Older Americans Act (OAA). For over 40 years, 
the Department of Labor has administered the Senior Community Service 
Employment Program (SCSEP), authorized by Title V of the Older 
Americans Act.
    Before discussing our efforts to employ older workers and our 
legislative proposal for reauthorizing title V, I would like to say a 
few words about America's aging population and workforce, and provide 
context on where SCSEP fits in the broader workforce investment system.
                   the aging population and workforce
    The U.S. economy is entering a period of dramatic demographic 
change as our population ages. According to the Census Bureau, in July 
2003, 12 percent of the total population was aged 65 or over, and this 
percentage is set to expand rapidly in the coming decades. After the 
first Baby Boomers turn 65 in 2011, the older population will become 
twice as large by 2030 as it was in 2000.
    Further, as a result of lower birth rates in recent years, combined 
with the aging and retirement of the baby boom generation, the American 
workforce is growing at a slower rate. The changing demographics of the 
labor force, in combination with the ever-increasing skill demands of 
employers, have made it more critical that every available worker, 
including older Americans, be able to join or remain in the workforce 
to enable the continued competitiveness of American businesses in the 
21st century.
             barriers to employment faced by older workers
    The Baby Boomer cohort of older workers has different 
characteristics than in years past. Far more women have experience in 
the workforce than their counterparts a generation ago. More of this 
cohort are caring for grandchildren, and most envision a very different 
retirement than that of their parents--one that includes at least some 
work, whether for social engagement, intellectual stimulation, or 
because of financial necessity. However, despite a need for their 
skills and their desire to remain in or re-enter the workforce, many 
older Americans find themselves unable to find suitable work. Limited 
opportunities for flexible work schedules, outdated technology skills, 
pension plan disincentives, and a reluctance by some employers to hire 
older workers all limit the full potential of this productive, 
experienced cadre of workers.
    There is a resource available to help. The workforce investment 
system, which includes SCSEP, plays an important role in helping older 
workers gain the necessary skills and access the employment 
opportunities that will enable them to continue working. The workforce 
investment system also helps connect employers to the experienced and 
skilled workforce they need, including older workers, in order to 
compete in the 21st century global marketplace.
       response by the department of labor to an aging population
    Some employers already recognize the value that older workers bring 
to the workplace. They know that older workers are a human capital 
asset, serving as effective mentors to younger employees and bringing 
responsibility, loyalty, dedication, experience and skills to the 
workplace.
    Still, more needs to be done to provide older workers with job 
training opportunities and better connections to employers looking to 
hire them. At the Department of Labor, we are taking steps to enhance 
the effectiveness of our programs as well as brokering better 
relationships with partner Federal agencies and other organizations 
serving older American workers.
                   protocol for serving older workers
    In January 2005, ETA issued a national ``Protocol for Serving Older 
Workers.'' This important step in enhancing services to older workers 
was disseminated throughout the workforce investment system. The 
protocol seeks to enhance the services provided to older workers, and 
inspire the workforce investment system to pursue innovative strategies 
for tapping into this labor pool and connecting them with the job 
market. The protocol outlines a set of action steps that key 
stakeholders can take to achieve the goal of connecting employers with 
older workers. The stakeholder groups addressed in the protocol are: 
(1) the U.S. Department of Labor; (2) State and Local Workforce 
Investment Boards; (3) One-Stop Career Centers; (4) mature worker 
intermediaries and service providers; and (5) business and industry.
                 older worker projects and initiatives
Older Worker Task Force
    To build on the Protocol for Serving Older Workers, the Employment 
and Training Administration convened a DOL-wide Older Worker Task Force 
last year to explore the key issues related to the participation of 
older workers in the labor market. To continue the work of that task 
force, and in response to a GAO recommendation and a request from the 
Senate Special Committee on Aging, the Department of Labor is convening 
an inter-agency Federal task force to focus on the aging of the 
American workforce and the impact of this demographic change. The Task 
Force on the Aging of the American Workforce will bring together 
agencies from across the Federal Government to work collectively to 
address the workforce challenges posed by an aging population. The 
first meeting of the task force will be held in April.
    Assistant Secretary for Employment and Training Emily Stover 
DeRocco will chair the task force, which will identify and assess ways 
to address the barriers that prevent older workers from remaining in, 
or re-entering, the labor market and the impediments that prevent 
businesses from taking full advantage of this skilled labor pool. The 
task force's recommendations will be submitted to the Secretaries of 
all the participating Federal agencies, and may form the basis for 
future recommendations for the President and Members of Congress.
    Now I would like to turn to the Senior Community Service Employment 
Program (SCSEP), a workforce investment program targeted exclusively to 
low-income seniors.
        title v: the senior community service employment program
    SCSEP serves persons 55 years of age or older whose family incomes 
are no more than 125 percent of the Federal poverty level. Participants 
are placed in a part-time community service assignment in a local 
nonprofit agency so that they can gain on-the-job experience, and 
prepare for unsubsidized employment.
    The Fiscal Year 2006 appropriation for SCSEP is $432 million. This 
funding will result in approximately 92,300 people participating during 
Program Year 2006 (July 1, 2006-June 30, 2007). There are currently 69 
SCSEP grantees, including 13 national grantees, and 56 units of State 
and territorial governments.
    Program participants receive training and work experience in a wide 
variety of occupations, including nurse's aides, teacher aides, 
librarians, gardeners, clerical workers, and day care assistants at 
nonprofit 501(c)(3) organizations and public agencies. Program 
participants also work in the health care industry, such as in 
hospitals, as well as in recreation parks and forests, education, 
housing and home rehabilitation, senior centers, and nutrition 
programs. They are paid the highest applicable minimum wage, be it 
Federal, State or local, or the prevailing wage for persons employed in 
similar public occupations by the same employer.
    Before I turn to the Administration's SCSEP reauthorization 
proposal, I'd like to discuss two of the recent developments in our 
management of SCSEP: (1) the implementation of electronic performance 
reporting, and (2) the competition for SCSEP national grants.
                    electronic performance reporting
    Electronic performance reporting has improved the accuracy and 
timeliness of our performance information, providing more immediate 
feedback on the outcomes of SCSEP participants. To accommodate the 
collection of data for the SCSEP statutory performance measures as well 
as the common measures for Federal job training programs, the 
Department provided grantees with a software program that has allowed 
them to collect performance data through their existing management 
information systems. Each quarter, grantees electronically submit 
performance data files, which are then consolidated into a single 
database.
    The final step in the evolution of SCSEP performance reporting is 
the Internet-based SCSEP Performance and Results Quarterly Performance 
Report system, which we call SPARQ, to be launched in May of this year. 
This system will store electronic records at the Department of Labor, 
and allow grantees to maintain their records via the Internet, reducing 
grantees' reporting burden and enhancing report accuracy.
                        scsep grant competition
    In addition to electronic reporting, the other significant 
development in our management of SCSEP is the current grant 
competition. On March 2, 2006, the Department announced a grant 
competition for the SCSEP national grantees. This is the second time we 
have competed the SCSEP national grants; the first was 3 years ago. 
That competition opened the door for four new national grantees, and 
spurred innovations in service delivery and program administration 
among the other national grantees. Grants funded by this Solicitation 
for Grant Applications, or SGA, will be for Program Year (PY) 2006, 
which begins on July 1, 2006. This SGA is designed to strengthen 
program administration, including management systems, service delivery 
and performance of the program, and we have emphasized each of these 
important goals in the SGA's evaluation criteria.
    The SGA is designed to encourage a move toward a regional service 
delivery architecture that will reduce fragmentation of service 
delivery areas by requiring that grantees apply to serve an entire 
county instead of a portion, except in very large counties. The SGA 
will also generally require grantees to apply to serve contiguous 
counties if multiple counties are served. Consolidated service areas 
better position a national grantee to effectively manage the program 
and to engage with the One-Stop Career Center system.
    I'd like to now discuss the Administration's proposal for SCSEP 
reauthorization.
             legislative proposal for scsep reauthorization
    Last May, assistant secretary Emily Stover DeRocco testified before 
you on the reauthorization of Title V of the Older Americans Act, 
proposing five reform principles to strengthen and modernize the 
program within the larger framework of the workforce investment system. 
I am pleased to describe to you today the Department's legislative 
proposal based on those principles. As an overview, the key reform 
principles would (1) streamline the program structure, (2) increase the 
minimum age for eligibility, (3) enhance the focus on employment 
outcomes and training for participants, (4) strengthen the capacity of 
the One-Stop Career Center system to serve older workers, and (5) 
strengthen performance accountability.
                      streamline program structure
    In order to streamline program structure, funds would be allocated 
exclusively to States according to a statutory formula. Each State 
would then competitively select one or more grantees to operate the 
program in their State. A competition would have to take place at least 
once during each 3-year period. This method of awarding grants would 
simplify administration, eliminate duplication, and create a more 
cohesive program. Eligible entities for State grants would include 
nonprofit entities, for-profit entities, agencies of State government, 
or consortia of agencies and/or organizations, including political 
subdivisions.
    National aging organizations would continue to play a major role in 
operating the SCSEP program in the States. However, the program would 
be streamlined by avoiding the current situation of having multiple 
national sponsors and the State program operating side-by-side in a 
State, sometimes administering programs with small numbers of 
positions.
                increase the minimum age for eligibility
    Our reauthorization proposal also increases the minimum eligibility 
age from 55 to 65. We believe the workforce investment system should be 
the primary deliverer of services for individuals age 55-64, and in 
fact, our One-Stop Career Centers are already serving this population. 
To facilitate a smooth transition to the new age minimums, we also 
propose exceptions to allow SCSEP programs to assist those individuals 
aged 55-64 who are hardest to serve, or have multiple barriers to 
employment.
    In order to effectively serve individuals age 55-64, we have 
already begun the process of ensuring that the One-Stop Career Center 
system has the capacity to serve these workers. Our reauthorization 
proposal would set aside 1.5 percent of funds for national activities 
that would support the One-Stop system to provide policy guidance, fund 
demonstrations and pilots, and disseminate best practices on serving 
older workers.
    The Department also proposes to clarify what the income eligibility 
standard for SCSEP should be. The Department's proposal calls for 
stipulating what participant income should be considered when the 
income eligibility test is applied. Standardizing the income 
eligibility of SCSEP would clarify eligibility for applicants and the 
general public, and would increase public confidence that the program 
is administered in a consistent and equitable manner.
                      focus on employment outcomes
    The Department's legislative principles for SCSEP reauthorization 
also enhance the employment focus of the program. A time limit of 2 
years for participants to obtain unsubsidized employment would 
encourage grantees to prepare their participants for work, to invest in 
skills development, and to work closely with local employers with a 
need for skilled, experienced workers. The proposed elimination of 
fringe benefits would reinforce the short-term and training aspects of 
the program. Many grantees have already eliminated fringe benefits, 
such as annual leave and cash outs of leave benefits.
    Grantees have raised concerns that, under current law, participants 
must be eligible for the grantees' pension programs. The Department's 
proposal would end the eligibility requirement and bring SCSEP in line 
with other short-term training and employment programs, allowing for a 
more cost-efficient administration of the program.
    The Department has proposed that the reauthorized program allow 
grantees to place individuals in appropriate training, and specifically 
authorize occupational training before or concurrent with community 
service training. Such training, which could include classroom training 
or individual training as well as on-the-job training, would provide 
participants with the skills needed to obtain unsubsidized employment.
    The Department has also proposed changing the current limit of ``no 
less than'' 75 percent of grant funds on wages to 65 percent, to 
provide grantees with increased resources to prepare participants for 
unsubsidized employment, such as training and supportive services.
                 strengthen performance accountability
    In order to ensure effective services for SCSEP participants and 
quality program operations, the Department proposes that 
reauthorization include the use of common performance measures, which 
would hold all grantees accountable for entered employment, retention 
in employment, and earnings. Grantees would be authorized to track 
additional outcomes, such as the provision of community services. The 
common measures are currently being implemented under administrative 
authority. This change would ensure that the statutory requirements 
reflect current administrative practice.
    Last, the Department has proposed to retain separate grant awards 
for Indian and Asian-Pacific Islander organizations, and has set aside 
grant awards for these organizations in the current national grantees 
competition.
    This legislative proposal for reauthorization will better serve 
seniors by streamlining the SCSEP program, strengthening its ability to 
meet employers' need for skilled experienced workers, and allowing 
grantees to tailor services to meet the needs of older workers. 
Reauthorization as proposed would also better integrate SCSEP services 
with WIA services, and target resources to those most in need while 
ensuring others receive services through the One-Stop Career Center 
system.
                                closing
    Mr. Chairman and Members of this Subcommittee, I look forward to 
working with you and your House counterparts on reauthorizing the Older 
Americans Act. Working together, I am hopeful that this important 
legislation can be enacted later this year. I also look forward to 
working with you on the reauthorization of the Workforce Investment 
Act, and on moving forward the President's ground-breaking proposal for 
Career Advancement Accounts.
    Mr. Chairman, this concludes my prepared statement. At this time I 
would be pleased to answer any questions that you or other subcommittee 
members may have.

    Senator DeWine. I would ask our second panel to come up now 
as I am introducing everyone.
    For our second panel, we have three representatives from 
title V grantees. These are the people who implement the 
legislation that we write, and I appreciate that you all have 
joined us today.
    First, we have Ignacio Salazar, president and CEO of SER-
Jobs for Progress National, Inc. Mr. Salazar has been with SER 
for a number of years. In 1975, he was selected to head SER 
Metro-
Detroit and in 2002 was selected to lead SER nationally. He 
also has served as an Assistant director of Admissions and 
Scholarship at the University of Michigan Graduate School of 
Social Work.
    Next, I would like to introduce Kent Kahn from Ohio. He is 
the regional communications specialist for Experience Works. He 
has been a great asset to older workers in Ohio. He worked with 
my office closely last reauthorization, and I look forward to 
working with him again. We welcome him as well. Under his 
leadership, the Experience Works program in Ohio has developed 
into one of the best in our Nation.
    Also joining us today is Tony Sarmiento, president and 
executive director for Senior Service America, Inc. For over 30 
years, his career in workforce and community development has 
included senior positions with the national AFL-CIO, the 
District of Columbia Department of Labor, and local community-
based organizations. He serves on the board of directors of the 
American Society on Aging, SeniorNet, and the American Youth 
Policy Forum, and chairs the American Council on Education's 
GED Testing Service Advisory Committee.
    We thank all of you for joining us. Mr. Salazar, we will 
start with you. Thank you. We set the clock at 5 minutes, and 
if you can keep it to that, then we will have a chance for a 
few questions.

 STATEMENTS OF IGNACIO SALAZAR, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, SER-JOBS FOR PROGRESS NATIONAL, INC.; KENT KAHN, 
REGIONAL COMMUNICATIONS SPECIALIST, EXPERIENCE WORKS OHIO; AND 
   ANTHONY R. SARMIENTO, EXECUTIVE DIRECTOR, SENIOR SERVICE 
                         AMERICA, INC.

    Mr. Salazar. Thank you, Senator. Mr. Chairman, I am pleased 
to have the opportunity to testify before you today. For over 
40 years, SER-National Jobs for Progress has worked tirelessly 
to ensure that workforce development needs throughout the 
communities are met. It is our mission to provide a national 
network of employment and training organizations that 
formulates and advocates initiatives that result in the 
increased development and utilization of America's human 
resources, with special emphasis on the needs of Hispanics, in 
the areas of education training, employment, business and 
economic opportunity. We remain steadfast in our continued 
efforts to cultivate America's greatest resource--people.
    The SER Network consists of 42 affiliates operating in more 
than 200 offices in 19 States, Puerto Rico, and the District of 
Columbia. Since its founding in 1965, SER has served millions 
of low-income residents with a full spectrum of services in the 
general areas of education, employment, and housing. We 
presently manage over 61 One-Stop Centers that serve 
approximately 800,000 individuals through these centers. Last 
year, the SER Network set a self-
imposed benchmark of providing services to over 1 million 
people, and this year we are well on our way to improving on 
that benchmark. In addition, SER is most proud of the fact that 
we have increased the percentage of Hispanics wherever we 
serve. We have more than tripled our percentage of Hispanics 
served from 9 to over 30 percent in our SCSEP program, our 
premier preparation program for older Americans. In the last 2 
years, SER has served a total of 3,500 individuals through the 
SCSEP program annually.
    In the 2003-2004 fiscal year, SER-National became a 
recipient of SCSEP, and since then has adopted the older 
workers' initiative as an essential part of the SER success 
story. SCSEP plays a crucial role in helping mature workers 
obtain the necessary skills and access to opportunities that 
will enable them to continue working after the traditional 
retirement age. The SER-National SCSEP partnership is one of 
our most highly touted programs, and we look forward to 
expanding that partnership in the years to come. We at SER 
realize that with a constantly changing dynamic it is crucial 
that the SCSEP program be reauthorized in a manner that will 
allow us to best serve our communities. To that point, we would 
like to suggest several recommendations for this committee's 
review.
    First, we respectfully recommend to change the community 
service component without completely eliminating the component. 
It would be responsible to reduce this component to serve those 
participants that are extremely elderly and not able to obtain 
unsubsidized employment but willing still to serve their 
respective communities. These valued services to local 
nonprofit and public entities bring an intergenerational 
cohesion to our communities that should not be lost. Obviously, 
it would be prudent to limit the number of participants served 
in this component.
    Second, we recommend establishing a bridge to the private 
sector. On-the-job training programs coupled with job 
internship programs should provide vital resources to further 
prepare mature workers for the workforce. These programs will 
also provide a conduit toward the local One-Stop Centers where 
participants can access other essential resources that will 
continue to prepare them for employment and allow eligible 
participants into WIA funding.
    Third, with regard to preparing participants for 
employment, additional funds should be set aside for the 
acquisition of basic skills which will improve their ability to 
compete in today's job market. We understand that the lack of 
basic computer knowledge and language deficiencies for the 
rapidly increasing Hispanic population continue to hinder 
participants in obtaining employment. Funding should be set 
aside for these participants to ensure that these difficulties 
are overcome.
    The current system utilized not-for-profit and public 
agencies in hopes of providing transition into the job market. 
In summation, our recommendation is to work together with local 
agencies to quickly prepare and mobilize a mature workforce.
    The following is a list of additional recommendations:
    The first of these is to provide additional funds for 
support services in the form of transportation assistance to 
facilitate program participants in accessing their training or 
internship sites.
    In reference to the proposed changes as put forth by the 
Department of Labor, we welcome any changes that will enhance 
the delivery of services. We believe that changes that support 
our participants will also benefit the employer community.
    We recommend maintaining a mix of national and State 
grantees to operate the program.
    We agree that the age limit of the program participants 
should be raised above 55, but not necessarily to 65. We would 
recommend the age of 60.
    We are very much in favor of establishing new income 
guidelines for program eligibility to align with other Federal 
employment programs.
    We would support setting time limits for participation in 
the program to 24 months or perhaps even 18 months.
    We recommend reducing the amount of program funds spent on 
wages, currently at 75 percent, and utilizing these funds for 
training and/or employment incentives such as internships.
    We would support eliminating 502(e) projects in order to 
use these funds for additional participant training and pilot 
programs within the employer community.
    Finally, we favor having three primary program outcome 
measures: entered employment, retention in employment, and 
earnings gain, in addition to the significant segments.
    As one of the newest SCSEP grantees selected 3 years ago 
under a competitive bid process, we welcome the continued 
selection of program grantees via the competitive process.
    On behalf of SER-Jobs for Progress and the millions of 
participants we serve, I would like to thank this committee for 
the opportunity to present these recommendations as we move 
forward in our joint mission of preparing America's workforce 
for the future.
    Senator DeWine. Mr. Salazar, thank you very much.
    Mr. Salazar. Thank you, sir.
    Senator DeWine. Mr. Kahn.
    Mr. Kahn. Senator DeWine, thank you for the opportunity to 
testify on behalf of Experience Works. Thoroughly explained and 
understood, I have honestly never heard anyone criticize the 
intent of the SCSEP.
    Previously known as Green Thumb, Experience Works is now in 
its 40th year of providing community service employment and 
training to low-income seniors. The small demonstration program 
that initially launched Green Thumb in 1965 is now a major 
Federal workforce initiative success story. We remain strongly 
committed to services to rural America and to the mission of 
the SCSEP. It is the only thing we do.
    I am here today to talk about the SCSEP reauthorization. 
However, we also have another immediate concern: the Department 
of Labor's recompetition. There is not enough time to effect a 
smooth transition. The transition will be costly. The last 
competition cost Experience Works more than $2.3 million. Those 
funds should be used for services to participants.
    The proposal is bad for rural counties. Services to older 
workers in rural counties, if provided at all, will suffer. We 
suggest the Department of Labor withdraw the SGA and extend the 
current grants for 1 year when the Older Americans Act should 
be reauthorized.
    Regarding the SCSEP reauthorization, the current dual 
purpose is the heart of the program. It gives many who live in 
small rural communities with very limited employment 
opportunities a great alternative: community service.
    During reauthorization, we ask that Congress adhere to four 
principles:
    No. 1, support best practice and avoid disruption in the 
program by continuing to fund national and State grantees. If 
national grantees are eliminated, the SCSEP loses more than 200 
years of experience in successful program models.
    No. 2, target services to older persons with the greatest 
economic and social need by maintaining the current age 
requirements. In the heart of Appalachia, 59-year-old 
participant Cheryl Crooks lives in Woodsfield, Ohio, in Monroe 
County with a double-digit unemployment rate approaching 16 
percent. Without transportation and having to compete against 
more skilled workers, Crooks is relieved she can earn some 
income in her community service assignment.
    No. 3, strengthen the emphasis on community service in 
addition to promoting economic self-sufficiency among 
participating seniors. When we look at disaster relief efforts, 
whether it be a Katrina or Rita, our participants have been 
critical to these efforts. Participants work on local Red Cross 
efforts to field and manage phone banks. Others work with FEMA 
to help victims complete applications for relief assistance, as 
well as complete DOL emergency employment applications. 
Community service must remain a core philosophy of this 
program.
    The SCSEP does more than train older workers. It directly 
supports and partners with thousands of local and faith-based 
organizations and public agencies. Seventy percent of these 
agencies report they will not be able to provide the current 
services without the SCSEP.
    No. 4, maximizing expenditures on participant wages and 
benefits and minimize administrative costs by retaining current 
policy on program budgets. With the increase in State minimum 
wages, there are not enough dollars to support the wages and 
benefits to participants at the same time the operational 
costs, such as medical insurance, workers' compensation, and 
travel, especially in rural areas, continue to increase.
    Experience Works agrees that competition should be 
conducted only when grantees do not meet accountability and 
performance measures. Service delivery will always suffer if 
grantees are constantly forced to hire and maintain qualified 
staff, if recompetition occurs without comprehensive and 
independent evaluations. Experience Works believes the 
equitable distribution of SCSEP positions should continue to be 
distributed by county based on equity share. If funds are not 
distributed by equitable distribution, services will disappear 
in rural counties. It is much easier to provide those services 
and achieve goals in more populated communities.
    Many of the participants now being enrolled need long-term 
extensive training and support. Therefore, there should be no 
time limitations for purchase of an enrollment. Time 
limitations should be based on the individual service strategy.
    If an older worker is underemployed but has an income below 
125 percent of the poverty level, the regulations now say they 
are not eligible for the SCSEP. Such is the case for an Ohio 
applicant who lives by herself. Her only income was working 9 
hours a week at a laundromat earning $6 an hour. I had to tell 
this woman she was not eligible. She should have been able to 
receive SCSEP services.
    I urge you and the Department of Labor to work with SCSEP 
grantees to ensure that the program maintains its high 
standards of quality and community service. The SCSEP must 
continue to reach rural as well as urban communities and be 
responsive to the needs of our aging population and partnering 
organizations.
    Thank you.
    Senator DeWine. Mr. Kahn, thank you very much.
    [The prepared statement of Mr. Kahn follows:]
                    Prepared Statement of Kent Kahn
    Senators DeWine and Mikulski, thank you for the opportunity to 
testify. On behalf of Experience Works, Inc. I must get right to the 
point. We need your help and the help of your colleagues to 
reauthorize, improve, and increase the SCSEP as a part of the Older 
Americans Act. This is a great program that helps thousands of poor 
older Americans. Thoroughly explained and understood, I have honestly 
never heard anyone criticize the intent of the SCSEP. A success story 
is 61-year Coshocton, Ohio participant, Karen Shample, who designs and 
updates web pages for the county One-Stop. Shample says if Experience 
Works had not placed her at the Coshocton County One-Stop she would 
have never learned how to design web pages, write a newsletter or use 
Microsoft Excel.
                            experience works
    Now in our 40th year, Experience Works helps seniors get the 
training they need to find good jobs in their local community. 
Originally named Green Thumb, and chartered in 1965 as a small, rural 
demonstration program, Experience Works operated the first older worker 
program. In 1965, the Nelson Amendment to the Economic Opportunity Act, 
funded the ``green thumb'' project and 10 days later, Green Thumb, Inc. 
(now Experience Works) was launched as the first nonprofit organization 
created to run a jobs program for disadvantaged rural Americans. The 
following spring, crews of 280 participant farmers went to work on 
beautification projects in Arkansas, New Jersey, Oregon, and Minnesota. 
That initial project in four States soon evolved into the Senior 
Community Service Employment Program (SCSEP). The small demonstration 
program that initially launched Green Thumb in 1965 is now a major 
Federal workforce initiative success story. We remain strongly 
committed to services to rural America and to the mission of the SCSEP, 
it is the only thing we do.
                  competition is an immediate concern
    I am here today to talk about the reauthorization of the Older 
Americans Act however, there is a more immediate concern I want to talk 
about first and that is the Department of Labor's competition of the 
SCSEP. The proposal (published March 2, 2006; 71 Fed. Reg. 10798-10820) 
will disrupt services to thousands of the current participants, 
diminish services, and weaken program effectiveness in rural counties. 
The programmatic confusion that will result from this nationwide 
turnover of participant positions, especially with new inexperienced 
sponsors, will increase substantially for at least the first 6 months 
after the competition as old and new sponsors grapple with the immense 
administrative requirements at the expense of working with the 
participants who need help. The transition after the 2003 competition 
resulted in fewer people served, fewer people placed in jobs and higher 
participant unit costs for at least the first year after the 
competition. The proposed re-competition will result in decreased 
participation in the program by poor older individuals and slow 
movement of many of the 47,000 program participants into unsubsidized 
employment as both old and new sponsors deal with the additional 
workload required to implement this massive movement of participants 
from sponsor to sponsor nationwide. If experience proves true from the 
first competition, as many as 16,000 seniors that would otherwise be 
served by the SCSEP will be turned away because of the inability to 
move current participants into jobs.
    A major concern of ours is that the proposal will be bad for rural 
counties because grantees are required to bid on at least 224 positions 
or 10 percent of the positions in the State, whichever is higher. This 
means that grantees that have operated in urban areas will now have to 
operate the program in surrounding counties that will most likely be 
rural. Such grantees typically do not have a rural service delivery 
system; it is difficult to operate in rural counties and the cost is 
much higher. Services to older workers in rural counties, if provided 
at all, will suffer.
    The proposed transition timeframe requirements are illogical and 
will impose unreasonable cost burdens on the grantees. The Department 
unofficially estimates that 30,000 of the 47,000 positions nationwide 
will be re-allocated from one grantee to another or given to brand new 
sponsors with little or no direct experience operating this program. In 
less than 30 days from grant notification to the start of the new grant 
period on July 1, 2006, all selected sponsors--old and new--will have 
to meet with every participant to collect required program data as well 
as payroll information. Each host agency where participants are 
assigned will also have to be met with to negotiate a new agreement. 
And most importantly, is the payroll information required from each 
participant before they can be paid by the new grantee at the end of 
the first payroll in the new grant year. Experience Works' first pay 
period end date is July 8, 2006, only an 8-day turn around time. These 
low-income older workers won't receive a paycheck if payroll 
information is not collected in time. Beside the disruption for the 
participants and host agencies, the proposed competition will result in 
substantial transition costs to grantees that will not be reimbursed 
and that could otherwise be used to pay for services that directly 
benefit the older workers. Based on the actual cost of transition in 
the 2003 competition, we project that in total, existing sponsors alone 
will spend over $10 million during this transition to displace old 
staff, hire and train new staff, terminate existing office leases, find 
new offices and execute the leases, ship furniture, purchase computers 
and other necessary close down and start up expenditures. This does not 
include the ``ramp up'' costs for new sponsors.
    We suggest that the Department of Labor withdraw the SGA, extend 
the current grants for 1 year and be prepared to release the SGA for 
the next year in a more timely manner so grantee selections are 
announced early enough to allow for a smooth transition.
                         scsep reauthorization
    Now regarding the SCSEP and reauthorization, I can truly tell you 
the people who operate this program do it to improve the lives of older 
workers. How hard they work is evidence of their compassion and 
commitment. I know the staff would love for each and every participant 
we serve to find employment, but that is not always possible. However, 
the current dual purpose of the SCSEP gives many who have limited 
skills and live in small rural communities with very limited employment 
opportunities a great alternative, community service.
    During reauthorization, we ask that Congress adhere to four 
principles.
1. Support best practice and avoid disruption in the program by 
        continuing to fund both national and State territorial grants 
        to operate the SCSEP.
    The thirteen national grantees (selected by USDOL through a 
national competition in 2003) add significant value to the total SCSEP 
program and delivery system. These national nonprofit organizations 
strengthen SCSEP at the State and local level by sharing best practices 
on serving hard-to-reach rural and urban communities, including 
minority and immigrant groups; collaborating with WIA One-Stops, area 
agencies on aging, and leveraging local resources to support SCSEP. 
They develop and replicate successful program models by partnering with 
national-level corporations, employer associations, social service 
agencies, and other providers. National SCSEP grantees represent 
unmatched expertise and experience that would be difficult to replace.
2. Target services to older persons with the greatest economic and 
        social need--including those from minority, rural, and urban 
        hard-to-serve communities--by maintaining the current age 
        requirements.
    SCSEP serves over 100,000 persons 55 and over each year, over twice 
as many as those served by WIA. Further, SCSEP serves a more needy 
population: over 70 percent of all SCSEP participants are women; over 
80 percent are 60 and older; over 80 percent are at or below poverty, 
about one-third have less than a high school education; and over 40 
percent are from a minority group. In contrast, WIA nationally serves 
less than 4,000 persons 65 and over of any income and education level 
(likely due to performance disincentives currently built into WIA, 
according to GAO Report 03-350). In PY 2004, national and State/
territorial SCSEP grantees achieved ACSI customer satisfaction scores 
that were ``substantially higher'' than scores for WIA, and better than 
most organizations in the private sector.
    In the heart of Appalachia, 59-year-old Experience Works 
participant Cheryl Crooks lives in Woodsfield, Ohio in Monroe County 
with an unemployment rate approaching 16 percent. Ormet Corporation, a 
steel manufacturing plant, closed recently, resulting in the loss of 
more jobs for many of the local residents. Without transportation and 
having to compete against workers with more skills and experience for 
jobs in the small village, Crooks is relieved she can earn some income 
with her assignment at the Monroe Tri County Help Center. She is able 
to walk to her host agency where she is training in a clerical position 
learning new computer skills.
    Priority for SCSEP eligibility is now for older workers 60 years of 
age and older. Once these older workers reach 62, at the very least, 
most of them have the safety net of some Social Security; even if it is 
a small amount. At least it is some income. The SCSEP should continue 
to serve individuals 55 years of age and older. Individuals 55 to 61 
are often much worse off because they do not get Social Security. They 
need the assistance from SCSEP. They don't want to settle for a job at 
minimum wage. They still want to earn a respectable wage and need 
health care benefits, vacation time, sick leave and hopefully a 
retirement plan. Many times they are more desperate than older 
individuals. Since SCSEP grantees are partners with the WIBS, older 
workers who go to the one-stops for services are referred to SCSEP 
because grantees have the skills and knowledge of working successfully 
with older workers. And there are possible funding cuts in the WIA 
adult and dislocated workers programs and, at least in Ohio, many WIBs 
are going to be using 10 percent of their funding for incumbent worker 
training. So there may be limited WIA funds for training older workers.
3. Maintain and enhance the community service employment aspect of the 
        program in addition to promoting economic self-sufficiency 
        among participating seniors.
    In the small town of Antwerp, Ohio, in rural Paulding County, in 
northwest Ohio, 77-year-old Eleanor Perriello walks to her assignment 
each day at the Antwerp 
elementary school. She spends her time helping kindergarten students. 
With deteriorating health, lack of transportation and limited 
employment opportunities her community service assignment allows her to 
lead a productive life without being dependent on her children or 
others. It provides her with dignity, builds her self-esteem and allows 
her to continue as a contributing member of society. And, in the upper 
shore of Maryland in Cecil County, 65-year-old Leon Flynn, with failing 
eyesight and no transportation, cannot get to an area where there are 
jobs he can do. He could not find employment in the small rural town of 
Elkton, Maryland. He draws less than $600 a month in social security. 
So his SCSEP assignment in maintenance at Elkton Housing is giving him 
an opportunity to learn new skills, provide services that might 
otherwise not get done and to supplement his income.
    SCSEP does more than help older job seekers find employment--it 
directly supports the day-to-day operation of thousands of community 
and faith-based organizations and public agencies. According to USDOL, 
70 percent of these agencies reported that they would not have been 
able to provide the same level of services without SCSEP. Last year 
alone, SCSEP participants provided these agencies close to 46 million 
hours of paid community service.
    Community service helps participants productively transition to 
employment in a way that preserves their dignity and self-worth. Each 
community service assignment provides opportunities to learn, earn, and 
serve others. Community service assignments result in productive 
involvement for low-income individuals who are not looking for a 
``handout'' but a ``hand up'' within their own communities. The 
service-learning model is uniquely suited to older learners who can 
marry their lifetime of experience with the new skills they need to be 
competitive in the workplace of the future. Unlike persons out of the 
workforce who are searching for jobs who lose confidence during a job 
search, participants performing community service have a support system 
that boosts them up and coaches them toward success. There is no 
substitute for many services that local community service agencies 
provide to the program. And, likewise, there is no substitute for the 
many services SCSEP participants provide to all segments of their 
communities through working in and learning from social service 
agencies. The program also addresses barriers that community service 
agencies have in recruiting volunteers the agency needs to continue to 
provide quality services. As previously discussed at the subcommittee's 
roundtable, held earlier this year, increased concern was expressed 
about the ability to deliver services funded through other OAA programs 
to older Americans. The SCSEP is a perfect resource for the aging 
network and many participants are already assigned to local aging 
services. The SCSEP provides a win-win outcome for both the participant 
and the agency. Policymakers need to take a strong look at the rich 
history of the SCSEP and continue to support an infrastructure that 
supports the civic engagement and social capitol aspects of this 
program. Also, there continues to be a need for older workers to have 
access to employment services that place an emphasis on part-time, paid 
work to maintain their self-sufficiency. The public feels good about a 
program that is not an entitlement program--but rather a program where 
people are not only working for what they get, but they are providing 
locally needed assistance that taxpayers can see for themselves. They 
feel good about knowing people, ``like their grandmother or 
grandfather,'' are contributing to their communities, feel useful, and 
have a reason for living. And, particularly in rural remote localities, 
these individuals help the communities stay alive.
4. Maximize expenditures on participant wages and benefits and minimize 
        administrative costs by retaining current policy on program 
        budgets.
    Grantees have operated an efficient and effective program with 
administrative costs capped at 15 percent (most are 13.5 percent or 
less). Experience Works is around 8 percent. Requiring that 75 percent 
of all SCSEP funds be spent on participant wages and benefits has not 
deterred grantees from achieving all legislated SCSEP goals, including 
preparing SCSEP participants for unsubsidized jobs and providing 
community services in demand. To increase intensive training 
opportunities for SCSEP participants, the Department should consider 
revising the 502(e) program to compliment the mainstream SCSEP 
objectives to place participants in well paying jobs. Also, the 
Department should address existing disincentives in WIA that dissuade 
one-stops from providing intensive services to workers seeking part-
time employment, which include many SCSEP participants and other older 
workers.
                       additional recommendations
Competition should only be conducted when grantees do not meet 
        performance measures.
    Experience Works concurs with Congress's intent in the last 
reauthorization that competition should be conducted only when grantees 
do not meet performance goals. Competing every 3 years as proposed by 
the DOL will be very disruptive to local service delivery and 
participants. Based on experience from the last competition, the 
transition of thousands of participants was very traumatic for those 
individuals and the community organizations where they were assigned. 
Why compete when a grantee is performing? Performance and the services 
to participants are impaired significantly after competition. 
Operational territories change which results in losing the network of 
partners that help provide supportive services, counseling, training, 
and jobs to participants. And, grantees will always be challenged to be 
able to hire and maintain qualified staff if staffs jobs are in 
jeopardy every 3 years.
                streamline data collection requirements
    The SCSEP data collection system, which has not yet been finalized, 
currently requires collecting data not directly related to either 
program performance or common measures. It is recommended that SCSEP 
grantees help modify the system that supports a broad range of users, 
including agencies with limited staff and limited capacity in 
information technology.
               equitable distribution of scsep positions
    SCSEP funding should continue to be distributed by county based on 
equity share. Eliminating the equitable distribution of positions, 
which appears to be the DOL's proposal since no slots were listed in 
the President's 2007 budget, would be detrimental to both needy seniors 
and thousands of local social service agencies. If funds are not 
distributed by equitable distribution, services will disappear in rural 
counties since it is easier to provide those services and achieve goals 
in more populated communities. National grantees have worked with 
States to promote continuous improvement in the current distribution of 
positions. Collaboration has led to significantly improved equitable 
distribution of positions in every State. The equitable distribution of 
SCSEP positions ensures enrollment of nearly 100,000 participants each 
year and also guarantees equitable access to services for participants 
as well as local organizations such as Meals on Wheels, caregiver 
networks, etc.
                          minimize disruption
    All grantees seek to minimize potential disruption to the program 
participants through this reauthorization. The combined impact of a 
delayed issuance of the Final Rules for SCSEP until 2004, the PY 2003 
SCSEP national grant competition, and the extended process to develop a 
new SCSEP data collection system (which is not yet completed) has 
resulted in constant change which ultimately effects service delivery 
to the participants, business partners, and local community-based 
organizations and program outcomes.
                     other suggestions and concerns
    Operating the SCSEP is now much more difficult. To use an analogy, 
the regulations lengthened the court by 50 feet, raised the baskets 10 
feet and we're not even allowed to dribble the ball. In the NCAA 
basketball tournament that would create some real ``March Madness!'' 
It's done the same with us. These new regulations are making it more 
difficult to improve the lives of older workers who want help.
    Due to the change in eligibility guidelines many of the 
participants now being enrolled need long-term extensive training and 
support. Therefore, there should be no time limitations for participant 
enrollment. In fact, many participants will be unable to find jobs off 
the SCSEP.
    When determining an applicant's eligibility we must now include 
income that was previously excluded. In addition, if an older worker is 
underemployed, but has an income below 125 percent of the poverty 
level, they are now not eligible for the SCSEP. Earlier this grant 
year, I received a call from an older worker who lived on her own. Her 
only income was working 9 hours a week at a Laundromat earning $6 an 
hour. I had to tell this woman she was not eligible for the SCSEP 
therefore, we would not be able to provide her with the job skill 
training she desperately need to get a better job. Is that what we 
really want? This woman needed SCSEP assistance. She could have learned 
new skills to get a job with a livable wage and benefits instead of 
living in poverty and possibly having to access government handout 
programs.
    Older workers who live in subsidized housing face an additional 
barrier to employment off the program. Their SCSEP wages do not count 
against their rent. However, they often refuse to take a job off the 
SCSEP because while that new private sector job may be paying them an 
additional $200 a month more their rent will go up $400 a month. I know 
I wouldn't take a job if my expenses were going up significantly more 
than my income. The ``catch 22'' is the danger in SCSEP wages counting 
against their subsidized housing because those older workers would then 
not be interested in coming on the SCSEP. We must come up with an 
equitable solution that will allow participants to take jobs off the 
SCSEP and not result in their housing cost going up incrementally.
    Sufficient funds should be provided to respond to the projected 
increase in SCSEP-eligible persons. The Census Bureau projects an 
increase in the number of older persons who will be eligible for SCSEP 
over the next decade. The Department should support an increase in 
total SCSEP appropriations in order to respond to the growing numbers 
of the older poor and increase the SCSEP unit cost taking into 
consideration the growing number of States that have a higher State 
minimum wage than the Federal minimum wage.
            scsep community service supports disaster relief
    SCSEP is a vital and consistent link in the disaster relief 
efforts--this year with Katrina and Rita, last year in Florida, and in 
previous years throughout the country. Participants still perform 
community service after all the volunteers go back to their regular 
lives. SCSEP participants are currently aiding in relief efforts in the 
Gulf Coast by providing a consistent presence, performing essential 
functions that volunteers can't duplicate because of their transient 
presence. Participants are performing duties with the Red Cross like 
answering phones and ensuring follow-through, directing people who come 
to community action agencies to appropriate programs and providing 
information and referral, and at Workforce Investment Act one-stop 
centers helping them access employment services and other assistance. 
The SCSEP is a one-of-a-kind program that serves low-income, low-
skilled older workers. No other government program is currently meeting 
this need while also providing efficient and effective community 
services.
    I urge you and the DOL to work with SCSEP grantees who understand 
the challenges of the day-to-day operations and working with the 
population served by the SCSEP to improve and streamline the SCSEP. We 
need to develop a world-class older worker program that gives grantees 
the flexibility to meet the needs of older workers. It needs to be 
user-friendly in order to meet the needs of aging baby boomers, the 
aging community, other public and private nonprofits and private 
employers.
    Together we can create that world-class older worker-training 
program. Community service agencies can then expand their services, 
many more disadvantaged older workers with multiple barriers will have 
the ability to gain the job skills to increase their income and become 
self-sufficient and business and industry will benefit. Senators, 
ability is truly ageless. Thank you.

    Senator DeWine. Mr. Sarmiento.
    Mr. Sarmiento. Thank you, Mr. Chairman, for this 
opportunity to share our views on the reauthorization of title 
V. Senior Service America is the third largest national SCSEP 
grantee funded by the Department of Labor. We operate SCSEP 
exclusively through subgrants to local community-based, faith-
based, and publicly funded organizations. Currently, we have 
108 local partners in 257 rural, urban, and suburban counties 
in 23 States and the District of Columbia. Today we have with 
us in the audience Sharon Minturn, who is president of the 
Senior Resource Connection in Dayton, who is one of our 
subgrantees; along with Kathy Damico of Family and Children 
Services of Baltimore--Central Maryland, rather; and Flora 
Daughtry of the Baltimore City Health Department. All three of 
these organizations run SCSEP with a subgrant from our 
organization.
    Each year since the 2000 reauthorization, our diverse 
network of subgrantees has surpassed the contractual goals of 
our grant with the Labor Department. We believe that the 
performance of Senior Service America's subgrantee network 
demonstrates that Congress was on target when it significantly 
strengthened and modernized SCSEP during the last 
reauthorization in 2000.
    Under the current law and regulations, a wide range of 
organizations are able to accomplish SCSEP's dual and 
complementary missions of employing our Nation's most 
vulnerable seniors to, first, provide needed services in their 
community and, second, prepare themselves for unsubsidized 
employment.
    We support the vision for SCSEP that was developed by the 
13 national sponsors back earlier this January, but I would 
like to focus on two primary points.
    First, we think it is important to maintain the community 
service employment aspect of the program as a required activity 
for all SCSEP participants, and also urge Congress to keep the 
75-percent minimum expenditure on paid community service 
employment. We agree that it is desirable, highly desirable to 
increase classroom training opportunities for SCSEP 
participants, but we believe that it is possible now to do that 
without taking away resources from community service. And today 
we have with us in the audience two SCSEP participants from 
Baltimore who are in GED classes while they are also working in 
paid community service employment: Ms. Carrie Morris with the 
Baltimore City Health Department, and Ms. Victoria Gill, who is 
with the Family and Children Services of Central Maryland.
    When we think about the community service employment, these 
are 46 million hours of not make-work but real work that is 
being done by these participants. The kinds of things that they 
do for senior nutrition programs, senior centers, elder care, 
libraries, and other kinds of agencies would go missing if it 
were not for the paid community service employment.
    The second point I would like to make is that we hope that 
the Federal Government will continue to invest in national 
organizations like ours to help improve SCSEP at all levels. A 
number of things that we do to add value to the SCSEP system 
are produce publications, such as a recent publication called 
``Engaging Immigrant Seniors in Community Service and 
Employment Programs: A Guide for Providers.'' We did this in 
conjunction with the four minority aging organizations that 
currently run SCSEP and the Center for Applied Linguistics, 
because we believe that it was proper for SCSEP to focus on the 
most in need, those seniors who are isolated. And when we talk 
about isolation, language and culture as well as rural and 
urban geographies tend to create isolation. So this guide is 
our effort to try to build the capacity of the system for all 
grantees to serve immigrant seniors.
    But at the same time, poverty affects both Appalachia 
white--there are white elderly poor as well as African-American 
elderly poor, and we hope another publication we produced 
called ``Giving Back: How Older Ohioans Overcame Age and 
Poverty to Serve Their Communities,'' the story of SCSEP in 
Ohio, will also remind all grantees what SCSEP ought to be 
doing.
    In conclusion, we believe that the latest research on older 
workers, adult learning, and civic engagement published since 
the last reauthorization only reinforces that SCSEP is both a 
valid and necessary program for another 5 years. If SCSEP had 
not been established over 40 years ago, experts on aging today 
most likely would be calling for creating a new program just 
like SCSEP as part of a larger, comprehensive national response 
to our aging society. We think that the 9 million seniors who 
will be poor or near-poor in the next decade and, therefore, 
eligible for SCSEP would be best served if Congress reaffirmed 
in 2006 the same purposes and delivery system for SCSEP as they 
did in 2000.
    Thank you, Senator DeWine.
    [The prepared statement of Mr. Sarmiento follows:]
               Prepared Statement of Anthony R. Sarmiento
    Senators Enzi, Kennedy, DeWine, and Mikulski, and members of the 
committee, as the Executive Director of Senior Service America, I 
appreciate this opportunity to share our views on the reauthorization 
of the Senior Community Service Employment Program under Title V of the 
Older Americans Act.
    Senior Service America is the third largest national SCSEP grantee 
funded by the U.S. Department of Labor. Since 1968, we have operated 
SCSEP exclusively through subgrants to 108 local community-based, 
faith-based, and publicly funded organizations. Currently, our local 
partners operate SCSEP in 257 rural, urban, and suburban counties in 23 
States and the District of Columbia. Among our partners are local 
affiliates of Catholic Charities, Jewish Vocational Services, and the 
National Urban League; community action agencies and other community-
based organizations; rehabilitation agencies; institutions of higher 
education; local area agencies on aging; workforce development 
agencies; senior centers; and regional councils of government. Our 
subgrantees operate an array of programs in addition to SCSEP.
    Each year since the 2000 reauthorization, our network of local 
subgrantees has surpassed the contractual goals of our grant with the 
Labor Department. In Program Year 2004-2005, our diverse network of 
subgrantees exceeded their performance goals during the first full year 
of operation under the final SCSEP Rules (issued in April 2004) and the 
implementation of a new, far-reaching, and mandatory SCSEP data 
collection system. Last year, our program enrolled over 11,000 
participants, who provided nearly 5.5 million hours of paid community 
service at over 2,800 local nonprofit and public agencies. We 
accomplished these goals and expended 75 percent of our funds to pay 
the wages and fringe benefits of SCSEP participants.
    We believe that the performance of Senior Service America's 
subgrantee network demonstrates that Congress was on target when it 
significantly strengthened and modernized SCSEP during the last 
reauthorization in 2000. Under the current law and regulations, a wide 
range of organizations are able to accomplish SCSEP's dual missions of 
employing our Nation's most vulnerable seniors to (1) provide needed 
services in their community and (2) secure unsubsidized employment.
    In our opinion, the latest research on older workers, adult 
learning, and civic engagement published since the last reauthorization 
only reinforces that SCSEP is both a valid and necessary program for 
another 5 years. If SCSEP had not been established over 40 years ago, 
experts on aging today most likely would be calling for creating a new 
program just like SCSEP as part of a larger, comprehensive national 
response to our aging society. We think that the 9 million seniors who 
will be poor or near poor in the next decade (and therefore eligible 
for SCSEP) would be best served if Congress reaffirmed in 2006 the same 
purposes and delivery system for SCSEP as in 2000.
    Using the latest ``buzz'' words in aging, we would argue that SCSEP 
is a proven civic engagement program for disadvantaged seniors. Too 
often unrecognized or overlooked as assets in their communities, tens 
of thousands of low-income seniors are doing real and valuable work 
that would be sorely missed. The structure and rewards of paid 
employment (even at the minimum wage) promote not only the acquisition 
of skills but also a boost in self-esteem and self-awareness. In short, 
SCSEP is transforming their lives and building their communities.
    For these reasons, we concur with the attached document which 
describes a vision and rationale for SCSEP that was adopted by the 
national SCSEP grantees last January, prior to the Labor Department's 
release of its own Legislative Principles for reauthorizing SCSEP. 
Instead of reiterating the principles described in this joint document, 
I wish to provide additional information we received from our 
subgrantees and focus the rest of my testimony on several key points.
    In preparation for this hearing, we invited our subgrantees to 
submit their views on aspects of the Labor Department's proposals. (If 
requested, we will provide a summary of all responses at a later date.) 
More than 50 of our subgrantees have responded to our invitation, along 
with a handful of State SCSEP directors. Based on their 
recommendations, there was unanimous support for the following:

    <bullet> Maintaining SCSEP's primary emphasis on community service 
employment
    <bullet> Keeping the minimum age of eligibility at 55

    All of our subgrantees who submitted comments agreed that the 
capacity of their participating host agencies, large and small, would 
be greatly diminished if national SCSEP grantees either chose or were 
required to cut back their expenditures on paid community service 
employment for SCSEP participants. Currently, the Older Americans Act 
requires that 75 percent of all SCSEP funds must be spent on paying 
wages and benefits to SCSEP participants. This budget policy enhances 
the availability of SCSEP participants to work in various agencies, 
including many that are integral to the larger network of service 
providers to the elderly under the Older Americans Act, including:

    <bullet> Meals on Wheels and other senior nutrition programs
    <bullet> Elder care and child care
    <bullet> Senior centers

    For instance, the SCSEP project director of our subgrantee in 
Lisbon, Ohio, reminded us of a news story he sent us last summer from 
the ``Salem News,'' quoting Iris Marshalek, the director of the local 
office on aging, about her three SCSEP participants: ``Without their 
assistance, we would not be able to have senior day care . . . they are 
life savers.''
    Other types of agencies that would be jeopardized by a cutback on 
paid community service employment include libraries, especially in 
rural areas, and One-Stop Career Centers, where SCSEP participants 
often serve as specialists for all older job seekers.
    A cutback in paid community service employment would also 
discourage innovative projects such as the cultural tourism and oral 
history initiative that we launched last summer in south central 
Louisiana, the heart of Acadiana. Before Hurricanes Katrina and Rita 
struck, we supported two of our subgrantees, the Evangeline Council on 
Aging and Lafayette Council on Aging, to train SCSEP participants on 
conducting and transcribing interviews with older residents about local 
history and culture. In conjunction with the University of Louisiana in 
Lafayette, this project is part of an emerging economic development 
effort linked to local tourism. Despite the hurricanes, the SCSEP 
participants are completing oral histories, including several 
narratives of survival and recovery. While the project is unlikely to 
lead directly to unsubsidized employment opportunities in the immediate 
future, it has provided participants with the opportunity to contribute 
to documenting the history of their communities and enhance their 
communications and writing skills.
    A few of our subgrantees who submitted comments supported an 
increase in classroom training for SCSEP participants, primarily to 
supplement--not replace--paid community service employment as the 
primary activity that best fits the needs of the majority of their 
SCSEP-eligible population. It is our view that Congress could increase 
classroom opportunities for SCSEP participants without taking away 
resources for community service employment by revising or eliminating 
the current Section 502(e) and considering ``National Activities'' as 
proposed by the Labor Department.
    In addition, we support the Department's aim to increase the 
capacity of the larger public workforce system to serve older workers 
and job-seekers. Based on population and labor market projections for 
many of the States where we operate SCSEP, workers 55 and over will 
comprise ALL of the net labor force growth in States such as Iowa, 
Ohio, Pennsylvania, and Wisconsin. To meet the needs of employers as 
well as older job seekers, we will need a more robust public workforce 
system that knows how to assess, train, counsel, and assist older 
persons in addition to youth and displaced workers. We must find a way 
in which more of the resources of the public workforce system are spent 
on all older workers, including SCSEP participants.
    Taking into account the sheer numbers of the Baby Boomers and the 
latest research on pension coverage and attitudes toward retirement, we 
support stronger coordination and linkage between the existing public 
workforce system and other public systems such as State and local area 
agencies on aging, vocational rehabilitation, and the public library 
system.
    SCSEP must remain an essential part of this broader system. Those 
seniors with multiple barriers to employment will continue to need 
extra assistance if they are not to be passed over by employers. The 
current law establishes a specific program performance measure and 
defines those seniors who are considered ``most-in-need.'' It would be 
helpful if Congress would provide additional clarification to the 
income eligibility guidelines for SCSEP.
    We also urge Congress to recognize the value of funding national 
organizations to continue to be an integral part of the SCSEP delivery 
system. Working with our local subgrantees and other national SCSEP 
grantees, Senior Service America has been able to develop several 
products that are helping to improve SCSEP and other programs for older 
Americans. Our recent publications and video (``The SCSEP Story: 
Transforming Lives, Building Communities'') have been well-received by 
practitioners inside and outside of our subgrantee network. ``Giving 
Back,'' a publication about SCSEP in Ohio, and ``Engaging Immigrant 
Seniors in Community Service and Employment Programs: A Guide for 
Providers,'' complement each other, for together they challenge us to 
prepare all seniors in poverty (both native- and foreign-born) to be 
able to contribute to their community.
    We are especially grateful to the four oldest minority aging 
organizations for their assistance in producing our guide on immigrant 
seniors: the Asociacion Nacional Pro Personas Mayores, the National 
Asian Pacific Center on Aging, the National Caucus and Center on Black 
Aged, and the National Indian Council on Aging.
    National grantees are also able to establish and maintain 
partnerships with national organizations to enhance SCSEP as a whole. 
For example, Senior Service America engaged the Center for Applied 
Linguistics to co-author the guide on immigrant seniors. We also have 
engaged the American Society on Aging to develop materials enabling our 
subgrantees to train SCSEP participants to train their peers on 
cognitive vitality, brain wellness, and older drivers. We also have 
worked with the U.S. Chamber of Commerce's Center for Workforce 
Preparation to promote partnerships between our SCSEP subgrantees and 
their local chambers of commerce, as well as individual national 
corporations such as CVS.
    We also work closely with the State SCSEP directors and other 
national SCSEP grantees in the development of the annual SCSEP State 
plan and helping to meet equitable distribution goals at the county 
level. In our opinion, the stronger State SCSEP planning process, which 
began with the Final SCSEP Rules in April 2004, has improved the 
partnership and coordination between State and national grantees 
operating within a State.
    As a national grantee, we also provide ongoing training and 
technical assistance about SCSEP to our subgrantee network. They are 
thoroughly familiar and in compliance with final SCSEP regulations 
issued in April 2004 and are reporting all data required by the Labor 
Department.
    Finally, we also demonstrate the value we add as a national SCSEP 
grantee by bringing in organizations without prior SCSEP experience as 
subgrantees. For example, recently Jewish Vocational Services in 
Minneapolis joined our network because they recognized their need, as 
an agency, to increase their capacity to serve older workers.
    We urge Congress to continue to serve as wise stewards for this 
program as it has for the last 40 years. As you consider possible 
amendments to SCSEP, please take into consideration all the data 
available about the program since the 2000 reauthorization. For 
example, all SCSEP grantees have been collecting and reporting data 
about participants, host agencies, unsubsidized placements, and other 
performance measures mandated by the Older Americans Act. We urge a 
thorough analysis of this data prior to any major restructuring of this 
program of demonstrated effectiveness.
    Also, all grantees were encouraged to participate in the evaluation 
currently being conducted by the Government Accountability Office. 
Also, many grantees participated in an independent national evaluation 
of SCSEP commissioned by the Labor Department and conducted by DAH 
Consulting. Each of these separate evaluations should provide a 
framework for discussing how best to strengthen and improve SCSEP for 
the future.
    In conclusion, we urge Congress to continue its commitment to 
providing paid community service employment to low-income seniors as 
one of SCSEP's dual complementary missions. We also ask Congress to 
continue to support national grantees as a proven strategy to promote 
improvement of SCSEP at the national, State, and local levels. Just as 
it invests in national organizations to operate a Job Corps program 
targeted to serve disadvantaged youth, the Labor Department should 
continue to invest in national organizations to operate the Senior 
Community Service Employment Program to serve disadvantaged older 
adults.
    Thank you again for this opportunity to participate in this 
hearing. We will be providing additional testimony to the committee 
within the next 2 weeks.
      a vision for america's low-income senior workers and their 
                             communities\1\
    For 40 years, the Senior Community Service Employment Program 
(SCSEP) has provided part-time employment in a wide range of nonprofit 
and public agencies to low-income adults 55 and over. Every year, more 
than 100,000 older adults with poor employment prospects and the 
greatest need are able to re-enter the labor force. As extra help, 
SCSEP participants enable thousands of community and faith-based 
organizations to provide vital public services that would not otherwise 
be available to other needy seniors, children, and the general public.
---------------------------------------------------------------------------
    \1\ The following statement was adopted at a meeting held January 
10, 2006, of the 13 national grantees funded by the U.S. Department of 
Labor.
---------------------------------------------------------------------------
    The 2000 reauthorization of the Older Americans Act kept SCSEP 
intact while strengthening program accountability and the role of State 
governments. Congress concluded that SCSEP is an efficient and cost-
effective program, serving practically every county in the Nation, 
including hard-to-serve rural and urban communities.
    The 2005 White House Conference on Aging recognized that SCSEP 
ensures that ``the oldest, poorest and least skilled older workers do 
not fall through the cracks.'' Across the aging network, there is broad 
support for continuing SCSEP--with minor refinements--as our Nation's 
most effective workforce program serving the most vulnerable older 
Americans.
Principles to Guide SCSEP Reauthorization (Title V, Older Americans 
        Act)
    1. Target services to older persons with the greatest economic and 
social need--including those from minority, rural, and urban hard-to-
serve communities--by keeping the current age and income eligibility 
requirements.
    2. Maintain and enhance the community service employment aspect of 
the program in addition to promoting economic self-sufficiency among 
participating seniors.
    3. Maximize expenditures on participant wages and benefits and 
minimize administrative costs by retaining current policy on program 
budgets.
    4. Support best practice and avoid disruption in the program by 
continuing to fund both national and State/territorial grants to 
operate SCSEP.
    5. Strengthen the role of the Administration on Aging in SCSEP.
Possible Refinements to SCSEP
    1. Amend section 502(e) to remove disincentives for private 
business concerns, community colleges, and other training providers to 
participate in innovative training and placement activities for SCSEP 
participants.
    2. Fully implement a ``balanced scorecard'' to measuring SCSEP 
grantee performance that reflects Congressional intent, including 
service level to most-in-need, unsubsidized placement, and community 
service.
    3. Streamline performance data collection.
    4. Provide sufficient funds to respond to the projected increase in 
SCSEP-eligible persons.

    This approach would respect Congressional intent in 2000 to update 
SCSEP without disrupting a proven program has evolved to meet changing 
needs since its inception. Adopting these principles and refinements 
will enable SCSEP to serve the most vulnerable and hardest-to-serve 
older adults in a cost-effective, research-
validated, and high-quality manner for the remainder of this decade.
                               rationale
    1. The number of older adults in poverty and at risk will increase 
significantly, according to the Census. By 2008 there will be 6.7 
million persons aged 55 or over below poverty, a 22 percent increase 
from 5.5 million in 2000; by 2015, this number will increase to 9 
million low-income older Americans. Clearly the need for SCSEP is 
growing.
    2. Current research about productive aging, employment, and civic 
engagement supports the validity of paid community service employment 
to assist older adults at risk. Working in bona fide part-time jobs 
provides not only needed financial aid but also contributes to 
participants' physical and mental well being, helping them avoid 
becoming increasingly dependent on others.
    3. SCSEP does more than help older job seekers find employment--it 
directly supports the day-to-day operation of thousands of community 
and faith-based organizations and government agencies. According to 
USDOL, 70 percent of these agencies reported that they would not have 
been able to provide the same level of services without SCSEP. Last 
year alone, SCSEP participants provided these agencies close to 46 
million hours of paid community service. For instance, SCSEP 
participants and staff work as the primary older worker specialists at 
many WIA One-Stops and have helped meet the increased demand for social 
services as a result of Hurricane Katrina.
    4. SCSEP serves over 100,000 persons 55 and over each year, over 
twice as many as those served by WIA. Further, SCSEP serves a more 
needy population: over 70 percent of all SCSEP participants are women; 
over 80 percent are 60 and older; over 80 percent are at or below 
poverty, about one-third have less than a high school education; and 
over 40 percent are from a minority group. In contrast, WIA nationally 
serves less than 4,000 persons 65 and over of any income and education 
level (likely due to performance disincentives currently built into 
WIA, according to GAO Report 03-350). In PY 2004, national and State/
territorial SCSEP grantees achieved ACSI customer satisfaction scores 
that were ``substantially higher'' than scores for WIA, and better than 
most organizations in the private sector.
    5. The 13 national grantees (selected by USDOL through a national 
competition in 2003) add significant value to the total SCSEP program 
and delivery system. They develop and replicate successful program 
models by partnering with national-level corporations, employer 
associations, social service agencies, and other providers. These 
national nonprofit organizations strengthen SCSEP at the State and 
local level by sharing best practices on serving hard-to-reach rural 
and urban communities, including minority and immigrant groups; 
collaborating with WIA One-Stops, area agencies on aging, etc.; and 
leveraging local resources to support SCSEP. National SCSEP grantees 
represent unmatched expertise and experience that would be difficult to 
replace.
    6. Since USDOL did not issue final regulations for SCSEP until 
2004, many of the initiatives and improvements embodied in the 2000 
reauthorization are only starting to take effect. For instance, the 
reauthorization requires stronger national and State grantee 
coordination, but the improved State planning process has been in place 
for only 1 year. At the request of the Senate Special Committee on 
Aging, GAO is conducting a review of SCSEP since the 2000 Amendments. 
It would be premature to make major changes without full implementation 
of Congressional intent from the last reauthorization in 2000.

    Senator DeWine. Well, I thank the panel very much. I just 
have a couple of questions.
    Let me ask all of you, do you agree that there is room for 
streamlining in the program? For instance, are there instances 
where you might be working in the same county and compete for 
the same community service employer? Anyone jump in here.
    Mr. Salazar. Yes, Senator, let me----
    Senator DeWine. Mr. Salazar.
    Mr. Salazar. Obviously, in certain situations we are 
collocated in particular cities, obviously in the larger urban 
areas. We have had nothing but good cooperation, you know, in 
my experience. We are competing to some extent, but in some 
extent, you know, it is a question of where you are in a city. 
If it is across an entire city, perhaps like the city of 
Detroit, where we operate, and there are other contractors, we 
operate the One-Stops in that city, so in a sense they would be 
coming to us. But I suppose you could say that in certain 
situations it would be better if one entity provided that 
service. But it has worked. There has been a spirit of 
cooperation, and I do not see that it could not. But, 
obviously, it is something that could be looked at for the 
future in terms of efficiencies.
    Mr. Kahn. I think we have worked that out very well in 
Ohio. We currently operate in 39 counties out of Ohio's 88, and 
only in three of those counties is there another SCSEP provider 
where we operate. So that has been done in the local level.
    Mr. Sarmiento. I agree. The more diverse the county is, the 
more rational it is to have a number of national grantees 
operating.
    Senator DeWine. Let me ask you this: How do your agencies' 
community service placements support the Aging Network and 
other community institutions?
    Mr. Salazar. Senator, could you repeat the question, 
please?
    Senator DeWine. How do your agencies' community service 
placements support the Aging Network and other community 
institutions?
    Mr. Salazar. Senator, in the majority of situations where 
we operate, we have very extensive working relationships--we 
have been in business for over 40 years doing what we do, and 
we have very extensive working relationships with employers 
that assist us from all levels, and we are able to extend that 
across the board and provide assistance to other entities. Was 
there any specific area you wanted me to focus on?
    Senator DeWine. No, just whatever--anybody else?
    Mr. Kahn. We work quite a bit with the Meals on Wheels 
program, senior citizen centers. Several of the participants 
across Ohio help deliver the Meals on Wheels, prepare meals, 
work in the kitchens, work in the senior centers. They are 
involved in various aspects of the Aging Network across Ohio.
    Mr. Sarmiento. Our agencies, the host agencies that 
participate in our program, have about 2,800 host agencies that 
work through our subgrantees, and they range from everything 
from a rural library where the SCSEP participant is helping to 
staff the computer center that might have been bought by the 
Gates Foundation in Alabama, but they also can be working at a 
One-Stop Career Center where the SCSEP participant oftentimes 
is the only staff person who is there to work with other older 
job seekers.
    Mr. Kahn. And just to follow up, again, in Ohio, we have 
participants working in the One-Stops, and when older workers 
come into the One-Stops, they are referred to the other 
participants we have working in the One-Stops.
    Senator DeWine. Based on your experience as a sponsor of 
SCSEP, what basic principles do you think should guide us here 
in Congress in reauthorizing the program?
    Mr. Salazar. Senator, I think you need to look at the 
credibility of organizations that obviously put forth the 
program. Are they producing? Is the program doing what it is 
intended to do? Are we training people to transition eventually 
into employment? Are we making a difference in the employer 
community? Are we making a difference in the lives of the 
individuals who are affected by our programs?
    Mr. Kahn. And I could agree with much of what Mr. Salazar 
has to say. I think there needs to continue to be a strong 
focus on community service, especially in the rural areas where 
we serve so many low-income older workers. There are just not 
alternatives in many communities where they work. A lot of the 
people that we serve just lack the skills and ability to move 
into jobs off the program. They have various barriers to 
employment that are health-related, transportation issues. And 
so I think Congress needs to keep that in mind as they 
formulate the SCSEP.
    Mr. Sarmiento. Our subgrantees have told us that what is 
really at heart here in the future of SCSEP is for Congress to 
clarify its intent for what they think older people need at 
this time. I think what is being asked is whether paid 
community service employment continues to be the best program, 
the best type of activity that fits within the low-income 
disadvantaged seniors who face multiple barriers to 
unsubsidized employment. Also, I think the idea that the 46 
million hours of paid community service employment that the 
participants provide now, the worry among some of the 
subgrantees we have worked with, as well as State Departments 
of Aging, is if that is reduced in any kind of significant way, 
where will the staffing, the volunteers come from to help run 
the Meals on Wheels programs and other critical programs that 
are part of the Aging Network?
    Senator DeWine. Mr. Salazar, in your testimony, you 
mentioned that there needs to be a bridge to the private sector 
established. What sort of cooperation do you currently see from 
the private sector? And how do you think this bridge can be 
established?
    Mr. Salazar. Senator, today the employer community needs 
individuals of all levels, and they are reaching out, and we 
need to be able to provide an individual to them that is ready 
to work and can produce for that individual corporation or 
company. More than ever before, because of the aging population 
and because we have a much more limited population coming up, 
the employer community needs these employees to be ready and 
able to work. So this is a resource that they need to maintain 
their viability as a corporation or as companies in local 
communities. And we provide a valuable service in making sure 
that is available to them.
    Senator DeWine. Mr. Kahn, in your testimony, you mentioned 
that you would like the age requirement to remain the same. You 
also mentioned that more than 80 percent of your participants 
are 60 years of age or older. What do you think of Mr. 
Salazar's recommendation to raise the age to 60 instead of 65, 
as the administration is recommending?
    Mr. Kahn. I really think it is extremely important that we 
continue to serve people 55 and older. Those are the ones 
without the safety net of Social Security. Now those that are 
65 and older have the Medicare Part D to help pay for 
prescriptions. Those people 55 to 61, they still face age 
discrimination. We get calls all the time from people that are 
not eligible for the program. They say they cannot find work 
because of their age, and definitely those that do meet our 
income guidelines have various barriers to employment, like the 
example I gave of the woman in Woodsfield who could not find 
employment and is able to get some income through community 
service, and through community service we believe she will be 
able to upgrade her skills and eventually find employment off 
the program.
    So I think it is very important that we continue to serve 
that age group of those 55 to 64.
    Senator DeWine. Well, I want to thank you all. This panel 
has been very helpful, as was the first panel. We have worked 
with you before, and we look forward to continuing to work with 
the three of you in the future. And we will continue to work 
toward this legislation.
    Thank you all very much. The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Kennedy

    It's a privilege to be part of this discussion today. As we 
work to reauthorize the Older Americans Act, it's essential 
that the lines of communication remain open with the 
Administration and the many groups affected by the decisions 
we'll make.
    Today's hearing will focus on title V of the act, which 
provides job training for older Americans to enable them to 
work in the communities they love, and which love them too.
    All of us agree that those who want to work should be able 
to work. Last year, the Senior Community Service Employment 
Program under title V supported over 61,000 jobs and served 
91,000 people. The program is targeted to seniors with the 
greatest social and economic need. Eighty percent of its 
participants are at or below poverty. A third have less than a 
high school degree, and 40 percent are minorities--real people 
receiving real opportunities to work and improve their 
communities. Older Americans benefit from the employment 
program, and are able to lead independent and productive lives.
    We're talking about people like 60-year-old David Carey who 
was living in a homeless shelter before he joined the program. 
He'd been doing odd jobs, but had no transportation and no 
steady employment. Experience Works assigned him to the 
Salvation Army Thrift Store, where he refreshed his skills in 
maintenance and custodial work and later found a full-time job 
and a new chance at a better life.
    Stories like that are not unique. My staff recently met 
grantees in Massachusetts, including members from Senior 
Service America, who have similar success stories. The program 
meets financial needs, and it also contributes to the physical 
and mental well-being of seniors.
    According to the Department of Labor, the program directly 
supports the day-to-day activities of thousands of community 
and faith-based organizations and the Government. Seventy 
percent of these agencies reported that they could not have 
provided the same level of services without this important 
program.
    As we consider proposals to modify title V, we must keep in 
mind that the program affects not only seniors, but the 
community as a whole. According to the Census Bureau, 7 million 
persons aged 55 or older will be living in poverty by 2008, up 
22 percent from 2000, and the number keeps rising. This year, 
the first of the baby boom generation will be eligible for the 
act's services. By the year 2030, one in five Americans will be 
over age 65. We obviously need to get our priorities right, and 
listen closely to those who administer the program and the 
seniors who participate in it.
    It's essential to remember the impact on the disability 
community and minorities as well, because they're vital parts 
of the program too.
    I look forward to working with all of you to strengthen the 
safety net for the Nation's seniors. Thank you all for taking 
part in this hearing, and helping us chart the path ahead.

                 Prepared Statement of Senator Mikulski

                                OPENING

    Chairman DeWine, thank you for calling this hearing today 
on the Senior Community Service Employment Program (SCSEP)--
Title V of the Older Americans Act.
    Reauthorization of the OAA is an important responsibility 
that we have to give our Nation's seniors.
    I look forward to hearing from our panel of witnesses today 
about the title V SCSEP.
    During the last reauthorization of the OAA in 2000, Senator 
DeWine and I worked very hard to strengthen SCSEP. I look 
forward to hearing about: where we have been, where we are now, 
and where we should be going with this important senior 
community service and jobs program.
    I understand that the Department of Labor has proposed 
drastic changes to this important program. I am very concerned 
about these proposed changes since I have not been made aware 
of problems programs administrators or recipients have with the 
current program. Sometimes if it is not broken--don't fix it.
    I question why the Department of Labor thinks that such 
drastic changes are needed for this program at this time.

                               PRINCIPLES

    As we move to reauthorize the Older Americans Act there are 
four principles that I believe must guide reauthorization.
    First, we must continue and improve the core services of 
this act to meet the vital needs of America's seniors. We need 
a national program, with national standards that ensure 
consistency--but also allows for local flexibility and 
creativity.
    Second, we must modernize the act to meet the changing 
needs of America's senior population, including the growing 
number of seniors over 85, the impending senior boom, and the 
growing number of seniors in minority groups.
    Next, we must look for ways to help seniors live more 
independent and active lives.
    Finally, we must give national, State, and local programs 
the resources they need to carry out these vital 
responsibilities.
    I believe that these are important guiding principles that 
we must keep in mind as we evaluate all of the Older Americans 
Act Programs.
    Let me expand on these principles.

                             CORE SERVICES

    It is vital to continue and improve the core services of 
this act.
    The Senior Community Service Employment program helps 
seniors to lead independent and active lives through community 
service jobs, skills training and a transition to unsubsidized 
employment. No other Federal program addresses the employment 
needs of people 55 and over.

                             MODERNIZATION

    Our senior population is not the same as it was in 1965. 
This will be the first time the baby boomers will be eligible 
for services under the Older Americans Act.
    That's why we must modernize the OAA to meet the changing 
needs and diversity of our seniors. We must prepare for the 
upcoming senior boom. By 2050 there will be nearly 90 million 
seniors over age 65, more than twice their number in 2003.

                              INDEPENDENCE

    Seniors today are living longer, healthier lives. We must 
do what we can to help them be as independent and active as 
possible. The Senior Community Service Employment program 
provides seniors with a job and valuable work experience.
    The number of older adults in poverty is increasing. By 
2008 there will be 6.7 million persons aged 55 or over below 
poverty level; a 22 percent increase from 5.5 billion in 2000. 
The need for the SCSEP is definitely growing.
    We must ensure that we are doing what we can to help ALL 
seniors live healthy, independent lives for as long as 
possible.

                               RESOURCES

    Finally, we must provide the resources necessary to meet 
these challenges and support our seniors.
    Too many Older Americans Act programs have been flat 
funded, and decreased for too long. The President's fiscal year 
2007 budget cuts the SCSEP by $44 million below last year's 
(fiscal year 2006) level. We should be increasing--not 
decreasing--funding for this important program.

                     IMPORTANCE OF TITLE V PROGRAM

    The title V program is extremely important for the 
thousands of unemployed, low-income Americans over the age of 
55 who are seeking work.
    Every year, more than 100,000 older adults with poor 
employment prospects and the greatest need are able to re-enter 
the labor force because of the support and guidance they 
receive from SCSEP providers.
    The title V program helps seniors to lead independent and 
active lives through community service jobs, skills training, 
and a transition to other jobs.
    This program provides part-time community service jobs to 
low-income seniors, providing a steady source of income that 
many of them need for rent, groceries, medical care and 
utilities. This program helps seniors help themselves.

                                MARYLAND

    The Senior Community Service Employment program is 
important to seniors in Maryland and benefits seniors in 
Maryland. Thousands of seniors benefit from the Senior 
Community Service Employment Program every year.
    All of these seniors are working in community service jobs. 
Fifty percent work in the senior service sector--working at 
senior centers, delivering meals to homebound seniors, and 
transporting seniors to doctors appointments; the other half 
work in other general community service positions at libraries, 
museums, the Red Cross and the Salvation Army.
    I look forward to hearing from two of the national grantee 
organizations that run programs in Maryland. That will be a 
part of our second panel of witnesses today--Senior Services 
America and Experience Works.
    I would also like to thank two SCSEP recipients who are 
joining us for today's hearing: Ms. Carrie Morris, from 
Baltimore City who, at 72 years old, is working toward 
receiving her GED as part of the Baltimore City SCSEP; and Ms. 
Victoria Gill (66), also from Baltimore City, who is working 
toward receiving her GED as part of the Family and Children 
Services of Central Maryland SCSEP, while working at the 
Southwest Senior Center.

                                CLOSING

    I look forward to hearing from our witnesses about how we 
can make the most of our opportunity to improve the Senior 
Community Service Employment program as we reauthorize the OAA 
and continue to meet the day-to-day needs of America's growing 
population of older Americans.

                 Prepared Statement of Senator Clinton

    I would like to thank Senators DeWine and Mikulski for 
holding this important hearing. As we prepare for the upcoming 
reauthorization of the Older Americans Act (OAA), it is 
critical that we address title V, the Senior Community Service 
Employment Program or SCSEP, which receives approximately 25 
percent of OAA funding.
    SCSEP, the only OAA program administered by the Department 
of Labor (DOL), provides vital opportunities for part-time 
employment and income to individuals 55 years of age or older 
whose income does not exceed 125 percent of the Federal poverty 
level. This program serves about 100,000 seniors each year by 
placing them in subsidized community service assignments in 
local nonprofit agencies where they gain on-the-job training 
and experience and prepare for unsubsidized employment.
    SCSEP also provides an invaluable service to our 
communities: its participants perform many needed activities in 
our neighborhoods--from working in senior centers, housing 
programs, and nutrition services such as Meals on Wheels, to 
helping at hospitals, recreation centers, parks, and 
educational sites.
    In Westchester County, participants are working at 
congregate meal sites, mental health offices, low-income senior 
apartments, food stamp and entitlement programs, senior 
centers, and the local library, to name just a few places. In 
other New York areas, the majority of participants are working 
at nutrition sites that serve the elderly.
    Through SCSEP, low-income seniors are given the chance to 
help themselves while giving back to their communities. They 
are able to retain independence and dignity without having to 
turn to public assistance.
    Recently, DOL has proposed a number of changes to SCSEP 
that I believe we need to review very cautiously as we look 
toward reauthorizing Title V of the OAA.
    The Leadership Council of Aging Organizations (LCAO), a 
consortium of over 50 aging groups, opposes any ``burdensome 
administrative requirements or significant programmatic 
changes'' to SCSEP.
    One of DOL's proposed changes would increase the age of 
eligibility for the program from 55 to 65, with some limited 
exceptions. The DOL has suggested that the Workforce Investment 
Act (WIA) and its One-Stop system should be the primary program 
to deliver employment services to people age 55 to 64.
    However, these One-Stops, which serve individuals of all 
ages, are not equipped to handle many of our more disadvantaged 
seniors who need extra support--those with limited educational 
backgrounds, outmoded work skills or long-term detachment from 
the labor force, and those with very limited incomes.
    Another recommendation made by DOL would place a 2-year 
time limit on program participation. Under current law and 
regulation, there are no maximum time limits that individuals 
may be employed in SCSEP. Regulations state that a grantee may 
establish a maximum duration of enrollment as long as the 
grantee transitions participants to unsubsidized employment or 
other assistance before the maximum enrollment duration has 
expired.
    I am concerned that these proposed changes would 
detrimentally affect the lives of poor seniors in New York and 
across the country, as well as the community service agencies 
where these participants work.
    Low-income older Americans between the ages of 55 and 64 
are a particularly vulnerable population because most are not 
yet eligible for Medicare or Social Security benefits. Often 
their earnings from SCSEP constitute their only stream of 
income.
    As the recent article in the New York Times reported (Life, 
and Work, After ``Retirement,'' 3/19/06), many older Americans 
enrolled in the program in New York City are in their mid-50's 
and early 60's and are under financial pressure. They are older 
workers who were laid off when their companies closed, moved or 
downsized and who could not find new jobs.
    In 2004, approximately 56 percent of SCSEP participants in 
the country were between 55 and 64 years of age. Similarly, in 
New York, 3,182 seniors or 55 percent of the participants in 
the program fell in this age bracket.
    Changing the age of eligibility to 65 for participation in 
SCSEP could have dire consequences on vulnerable adults between 
the ages of 55 to 64 because they would face additional 
hardship.
    I am also concerned that the 2-year time limit recommended 
by DOL could hurt many seniors currently served by the program 
or those who would be served by it in the future.
    For example, in Westchester County, where over 100 seniors 
currently participate in SCSEP, over half would be disqualified 
from the program because they have passed this 2-year time 
limit. Two years is not always enough time to help seniors 
enrolled in this program who have limited educations and low 
work skills.
    Finally, as we move toward reauthorization of title V, we 
must pay close attention to any changes that would threaten 
SCSEP's intent to support the community service aspect of the 
program. There is no substitute for many services SCSEP 
participants provide to their local communities as they work in 
all kinds of nonprofit agencies. Many of these agencies depend 
on these individuals to perform critical outreach activities 
that otherwise would not be done.
    At the subcommittee's aging roundtable last month, much 
concern was expressed about the ability to deliver services 
like Meals on Wheels to older Americans because of growing 
problems that community service agencies face in recruiting 
volunteers. SCSEP helps fill that gap by partnering these 
participants with local aging services.
    Reauthorizing the OAA is critical to the aging services 
infrastructure. We must ensure that any changes we contemplate 
preserve the integrity of SCSEP--a crucial program for both our 
seniors and our communities. Again, I thank you for holding 
this important hearing today as we prepare for reauthorization 
of the OAA.
          Prepared Statement of the National Council on Aging
    The National Council on Aging (NCOA) welcomes the opportunity to 
submit this statement for the published hearing record of the Senate 
Subcommittee on Retirement Security and Aging.
    NCOA began a partnership with the Department of Labor in 1968, 
providing services for the Senior Community Service Employment Program 
(SCSEP), and we have been a national sponsor for the program ever since 
then. Currently our SCSEP program is the fifth-largest of the 13 
national contractors. We are pleased that this relationship with the 
Department of Labor (DOL) has enabled us to serve tens of thousands of 
low-income older workers over the years, thus providing delivery of 
vital community services while enhancing the work skills of program 
participants. We appreciate the opportunity to comment on SCSEP as it 
begins to move toward reauthorization.
                        reauthorization of scsep
    SCSEP is our Nation's most effective workforce program for low-
income older Americans, and NCOA strongly hopes that it is not a source 
of controversy in the next reauthorization of the Older Americans Act 
(OAA). The best course for Congress to pursue with title V--the portion 
of the OAA that authorizes SCSEP--is to continue it as it is, with 
minor improvements. The 2000 reauthorization of the OAA made 
significant changes in the SCSEP, and it took 4 more years--until late 
2004--for the Department of Labor to issue final regulations for those 
changes. Thus, the sponsoring agencies and the program participants are 
still adapting to the new rules and systems that were only recently 
made final.
    NCOA strongly opposes DOL's proposed far-reaching structural 
changes to SCSEP, such as block-granting the program to the States, de-
emphasizing community service (which benefits program participants, the 
aging network, and communities served), eliminating nearly all 
participants under age 65, and eliminating fringe benefits for 
participants. These changes would make the program far worse, not 
better. Such changes are unwarranted, and would be disruptive and 
harmful to older workers and their communities.
    SCSEP is a proven program that has a good track record of providing 
both training and transition to unsubsidized jobs for difficult-to-
serve populations of older adults. It should be allowed to continue 
doing what it does well. During the last OAA reauthorization, one major 
reason for the 5-year delay was the controversial proposal to shift the 
funding formula from 78 percent for national sponsors and 22 percent to 
States to a 50 percent-50 percent split. Any attempt now to overturn 
the current compromise (which national sponsors and States supported) 
and go, in effect, from a 78 percent-22 percent split to a 0-100 
percent split would create great controversy, derail efforts to 
reauthorize the program this year, and deflect attention from important 
proposals in other OAA titles that would truly help seniors.
    There is broad consensus among all 13 national SCSEP sponsors, as 
well as other aging advocates, that the following principles should 
shape the reauthorization of title V:

    <bullet> Continue the current system of funding both national and 
State grants, including the current percentage split of the funds.
    <bullet> Maintain the program's historic dual emphasis on both 
community service placements and unsubsidized placements for 
participants.
    <bullet> Maintain the current age and eligibility requirements for 
participants, so that services can be targeted to persons with the 
greatest economic and social need.
    <bullet> Retain current policy on program budgets.
    <bullet> Strengthen the role of the Administration on Aging in 
SCSEP, because Section 505(a) of the OAA does not appear to be working 
as intended.

    NCOA strongly supports these five principles, and urges Congress to 
use them as the basis for reauthorizing SCSEP.
    In summary, NCOA's recommendation for reauthorization of SCSEP is 
straightforward: reauthorize it essentially as it is, without 
significant change. Ignore the radical changes that have been 
recommended by the Department of Labor.
               recent solicitation for grant applications
    NCOA has expressed concerns about the current round of competitive 
bidding, which was announced on March 2, 2006. First, we believe that 
an open competition that is anchored in fairness and equity should 
include among the evaluation criteria strong consideration of past and 
current performance in serving SCSEP enrollees--including such 
specifics as recruitment of difficult-to-place persons, placement 
rates, and addressing barriers faced by the most needy applicants. NCOA 
believes that if DOL gives significant weight to past performance in 
evaluating grant applications, than it will assure that the best 
possible services will be provided to low-income older workers and 
communities across the country. Conversely, by not considering past 
performance, DOL does not assure that low-income older workers get the 
best training and placement, which is what they need and deserve.
    Second, until early April, we were concerned that DOL's new round 
of competitive bidding carried the risk for major disruption to the 
educational and training services that are provided to program 
participants, as well as for financial burdens to national sponsors. 
Without sufficient time for grant transition, there was a substantial 
risk that current enrollees would lose training, and potential 
enrollees would face delays getting into the program. It appears that 
DOL has found an appropriate remedy for this problem by lengthening the 
transition period, although that decision has not yet been officially 
announced. NCOA supports the decision by DOL to lengthen the transition 
period, and extends thanks to all those who helped to reach this 
compromise solution.
                          additional comments
    SCSEP builds employment skills, renews each individual's sense of 
self worth, and provides needed wages to low-income seniors. It also 
offers valuable social and economic benefits to communities, and 
extends the reach of community-based organizations. All across our 
Nation SCSEP enrollees perform valuable community services in senior 
centers, libraries, schools, and health and social service 
institutions. It is important for Congress to understand that SCSEP is 
about persons, not just numbers. It is a program with a long and 
positive history of improving life for thousands of individuals and 
thousands of communities.
    There are some modest ways that Congress and DOL can improve SCSEP 
without imposing radical changes on the core program. For example, NCOA 
suggests that SCSEP can be improved by: developing measures of grantee 
performance that more closely reflect Congressional intent, 
streamlining performance data collection and reporting, revising the 
income eligibility rules, and revising section 502(e) to remove 
disincentives for businesses to participate in training and placement. 
These are not major changes, but they would enable the program to run 
more smoothly and serve more low-income seniors.
    NCOA also suggests that it would be worthwhile for DOL to create a 
substantial set-aside of funds for all programs serving minority 
groups. In order to accomplish this, DOL could set a cap on the amount 
of funding or slots granted to any one national sponsor.
    One point that must be emphasized in any discussion of SCSEP 
legislation is this: the program is woefully underfunded. The 
appropriation has remained flat or taken a small dip every year for 
many years, and thus in fiscal year 2006 there are fewer dollars than 
in 2000, despite growing numbers of low-income older workers who need 
SCSEP, and despite the significant erosion of purchasing power due to 
inflation. And now the Bush administration is seeking a 10 percent cut 
in SCSEP spending for next year. Congress should reject this drastic 
cut, because it would be devastating to low-income older workers and to 
their communities.
      Response to Questions of Senator Kennedy, Senator Mikulski, 
                   and Senator Murray by Mason Bishop

Response to Questions of Senator Kennedy

                  dol's proposal and community service
    Question 1. In 2000, we reauthorized the Older Americans Act and 
modified title V. In the committee report accompanying the bill we 
specifically stated, ``The revised purpose statement of title V 
reflects the committee's intent to maintain the community service 
nature of the program'' along with providing additional opportunities 
for seniors to be placed in unsubsidized employment. We acknowledged 
the importance of community service assignments for both seniors and 
for the communities where they live. What assessments have been done by 
the Department of Labor to justify proposals to change the SCSEP 
program and eliminate its dual purpose of both community service, and 
job placement?
    Answer 1. The Department is not eliminating SCSEP's dual purpose of 
community service and job placement. Community service work experience 
remains as a vital and important component of the program under the 
Department's reauthorization proposal. However, we would like to offer 
more flexible training options in the reauthorized program. Training 
options may include: community service or other work experience, on-
the-job training, and classroom instruction, lectures, seminars, 
individual instruction, or other arrangements, including but not 
limited to, arrangements with other workforce investment programs. We 
also propose to allow grantees to spend a greater portion of their 
funds for training. These proposals are in keeping with the greater 
training and employment focus clearly expressed in the Amendments to 
the Older Americans Act in 2000.
                      community service placements
    Question 2. When community service organizations are asking us to 
help increase civic engagement, why eliminate community service as a 
bona fide placement for seniors?
    Answer 2. The Department is not eliminating community service as a 
bona fide placement for seniors. Seniors may still be placed in 
community service organizations, and under the Department's 
reauthorization proposal, could also be placed in positions with 
private organizations. By allowing a broader range of job placement 
options, increasing opportunities for training, and establishing a time 
limit appropriate for a short-term employment and training program, the 
Department's reauthorization proposal emphasizes the training and 
employment aspect of the SCSEP program, as delineated in the Amendments 
to the Older Americans Act in 2000. Further, the Department's 
reauthorization proposal would result in more participants moving out 
of the program and into the labor market as practiced staff with 
experience in providing community service.
                     analysis of community service
    Question 3. Has the Department performed any analysis of the return 
on investment of community service placements? Has the Department 
assessed the impact of its proposals on community and faith based 
organizations and government agencies?
    Answer 3. Based on performance reports from Program Year 2004 (July 
1, 2004-June 30, 2005.), SCSEP participants have provided roughly 45.7 
million hours of community service.
    The Department expects community and faith-based organizations and 
government agencies to benefit from its reauthorization proposal. By 
giving States responsibility for competing grants to provide service 
and ensuring that those competitions are held at least every 3 years, 
smaller organizations such as community-based and faith-based 
organizations are more likely to be able to compete for grants. State 
agencies also benefit from the Department's reauthorization proposal as 
they will be able to administer the grant competition and manage 
services in their State in a manner that best suits the unique needs of 
their communities.
                            age eligibility
    Question 4. The Department has proposed changing the age of 
eligibility for SCSEP from 55 to 65 years of age, yet almost half of 
those served by the program are aged 55 to 64. What is achieved by 
eliminating this population?
    Answer 4. Because only 1 percent of the eligible population can be 
served by SCSEP, the Department's proposal targets finite resources to 
the older participants where those resources are most needed,. One-Stop 
Career Centers are already serving individuals 55-64 and have the 
capacity to serve those in this age category who previously were served 
by SCSEP. Under our reauthorization proposal, the One-Stop Career 
Centers would serve individuals 55 to 64, letting SCSEP grantees 
concentrate on serving those 65 and older, as well as those 55-64 who 
are hardest to serve or have multiple barriers to employment. This 
arrangement lets each system do what it does best. SCSEP grantees have 
valuable experience in serving individuals with multiple barriers to 
employment, and their expertise is best tapped when serving those older 
individuals truly in need of their assistance.
                   one-stop centers and older workers
    Question 5. One-Stop Centers are not geared to older workers, nor 
are they equipped to handle those older workers who may have special 
needs. In fact, I understand that currently when an older worker goes 
to a One-Stop Center they are typically referred to SCSEP. How will the 
Department of Labor ensure that people in the 55 to 64 year age range 
will receive appropriate employment training and placement services? 
What evidence or data is there to show that one-stops are effectively 
serving older workers?
    Answer 5. One-Stop Career Centers are currently serving older 
workers, and SCSEP is a required partner in the One-Stop Career 
Centers. Of individuals who exited the WIA Adult program in Program 
Year 2004, 13,544, or 6 percent, were 55 and over. Of individuals who 
exited the WIA Dislocated Worker program, 21,626, or 12.1 percent, were 
55 and over. Also, the Wagner-Peyser program served 1,389,027 job 
seekers aged 55 and over, representing 9.8 percent of total Wagner-
Peyser program job seekers.
    Because only 1 percent of the eligible population can be served by 
SCSEP, One-Stop Career Centers are by necessity places for older 
workers to obtain services. This is why the administration has proposed 
a number of reforms to the One-Stop Center system through Workforce 
Investment Act reauthorization.
    In the interim, the Department has issued a Protocol for Serving 
Older Workers in the workforce investment system. The goal of this 
protocol is to enhance the services provided to older workers and to 
infuse the One-Stop Career Center system with innovative strategies for 
tapping into this labor pool. Proposed action steps were identified for 
six major stakeholders, including One-Stop Career Centers.
    The Department also plans to issue additional policy guidance, fund 
demonstrations, and disseminate best practices to encourage better 
services for older workers at One-Stop Career Centers.
    Finally, the newly-formed Inter-Agency Task Force on the Aging of 
the American Workforce will examine how an array of Federal programs, 
including those available in the One-Stop Career Centers, can better 
serve older workers.
                            fringe benefits
    Question 6. The Department also proposes eliminating fringe 
benefits for seniors participating in the SCSEP program. This means 
that seniors will not be given paid holidays, they will be given no 
paid sick leave, no paid vacation, no paid health insurance and no 
Social Security coverage. What is the rationale for this change? Is the 
Department suggesting that if a low-income senior gets sick he or she 
should be forced to choose between a days pay that will keep food on 
the table or staying home to recover properly? Is it the Department's 
intent to increase the number of older Americans without health 
insurance?
    Answer 6. Fringe benefits are not provided in any other training 
program that ETA administers and we do not feel they are appropriate 
for a training program. Therefore, the Administration's reauthorization 
proposal eliminates most fringe benefits, but retains those required by 
law. We have heard from several grantees who support the elimination of 
fringe benefits as these benefits draw resources away from training and 
employment-related services to participants. Fringe benefits may also 
act as a disincentive for participants to leave the program and move 
into unsubsidized positions, which lead to better wages and benefits.
    With regard to health care specifically, there are currently no 
grantees that offer health insurance. Eliminating fringe benefits will 
not affect the health care of older workers.
                         reason for competition
    Question 7. It was the intent of Congress that re-competition only 
be conducted for those national grantees that performed inadequately 
after a warning period of 3 years. I understand that the Department is 
competing SCSEP again, but that it is not based on performance 
measures. Why is the Department competing this program again? If the 
competition is not based on performance measures how does that reflect 
fair competition? Shouldn't grantees be held accountable for their 
performance?
    Answer 7. The Department is competing SCSEP because competition is 
the stimulus for new ideas and high-quality service, and a cornerstone 
of Federal procurement policy. As a result of the 2003 competition, 
four organizations became new national grantees, including two with no 
prior SCSEP experience, such as SER. All four grantees are now 
performing well and continue to improve their performance. Regular 
competition also helps ensure that programs are being administered in 
an efficient and cost-effective manner.
    According to the Title V of the Older Americans Act, competition is 
not limited to when grantees fail performance measures. Section 514(a) 
limits the award of SCSEP grants to no more than 3 years, thus 
requiring a selection of grantees within 3 years of the first 
competition. The issue of whether the Department can compete grants has 
also been addressed by the Federal courts. As the U.S. District Court 
of the District of Columbia opined in Experience Works v. Chao:

        ``[t]he use of competitive procedures is a time-honored method 
        for obtaining the most highly qualified awardees of government 
        funds, for allowing new and innovative ideas and organizations 
        to receive those funds, and for assuring public confidence in 
        the integrity of the process to distribute government funds.''

    Recently, the Congressional Research Service also stated,

        ``[t]he court's analysis is also applicable to the current SGA, 
        which again requires a national competition for awarding new 
        grant funds for Program Year 2006 under the Older Americans 
        Act. The current SGA is issued in accordance with applicable 
        regulations and the statutory authorities for the SCSEP program 
        under title V.''
                           competition timing
    Question 8. I understand that many of the seniors served through 
SCSEP have multiple barriers to employment and are difficult to place 
in jobs. The Department is proposing that national grantees re-compete 
for grants every 3 years. This would create a disruption for both 
grantees and for the individuals served by those grantees. Why does the 
Department want to require that grantees re-compete every 3 years? If 
an organization is effectively serving their participants why should 
they be forced to focus time and resources on competition as opposed to 
their program participants?
    Answer 8. Competition is the stimulus for new ideas and high-
quality service, and a cornerstone of Federal procurement policy. 
Competition invites new ideas and new service delivery strategies. As a 
result of the 2003 competition, four organizations became new national 
grantees, including two with no prior SCSEP experience such as SER. All 
four grantees are now performing well and continue to improve their 
performance. Regular competition also helps ensure that programs are 
being administered in an efficient and cost-effective manner.

Response to Questions of Senator Mikulski

                        community service focus
    Question 1. Has DOL assessed the impact of changing the current 
dual focus of SCSEP away from community service and employment to only 
employment would have on the aging network and other community 
institutions that have long made constructive use of SCSEP community 
service placements, such as senior centers, nutrition programs, 
schools, and health and social service providers?
    Answer 1. The Department is not changing the focus of the SCSEP 
program to employment only. Community service work experience remains a 
vital and important component of the program under the Department's 
reauthorization proposal. Seniors may still be placed in community 
service organizations, and under the Department's reauthorization 
proposal, could also be placed in positions with private organizations. 
However, we would like to offer more flexible employment and training 
options in the reauthorized program, consistent with the employment 
focus given to the program by the amendments in 2000. Training options 
may include: community service or other work experience, on-the-job 
training, and classroom instruction, lectures, seminars, individual 
instruction, or other arrangements, including but not limited to, 
arrangements with other workforce investment programs. We also propose 
to allow grantees to spend a greater portion of their funds for 
training.
                       community service effects
    Question 2. Has there been any analysis of the contributions 
seniors have made to their community through their placements?
    Answer 2. In Program Year 2004 (July 1, 2004-June 30, 2005), SCSEP 
participants provided 45.7 million hours of community service. Of those 
hours, 13 million hours were in service to the elderly community. An 
ongoing evaluation, by DAH Consulting, will also examine the types of 
assignments participants receive under the reauthorized program. The 
purpose of these community service placements is two-pronged: to 
provide service to the community, and to gain the work experience and 
skills necessary to move into an unsubsidized position, either in a 
community service organization or in a private, for-profit, 
organization.
               dol analysis of community service effects
    Question 3. If DOL has made such an assessment, what has been 
learned?
    Answer 3. Based on the performance reports from Program Year 2004 
(July 1, 2004-June 30, 2005), SCSEP participants provided roughly 45.7 
million hours of community service The ongoing evaluation by DAH 
Consulting will provide more information on community services.
                            age eligibility
    Question 4. What is achieved by excluding seniors between the 55-64 
age brackets, who may be most in need of the program, because they are 
not eligible for Medicare, or for full Social Security (and most in 
that range are not eligible for any Social Security)?
    Answer 4. Because only 1 percent of the eligible population can be 
served by SCSEP, the Department's proposal targets finite resources to 
the older participants where those resources are most needed. One-Stop 
Career Centers are already serving individuals 55-64 and have the 
capacity to serve those in this age range who previously were served by 
SCSEP. As Americans live longer, they will remain in the workforce 
longer and the public workforce system should be utilized to help them 
prepare for and obtain new jobs and make career transitions.
    Under our reauthorization proposal, the One-Stop Career Centers 
would continue to serve individuals 55 to 64, letting SCSEP grantees 
concentrate on serving those 65 and older, as well as limited 
exceptions for those 55-64 who are hardest to serve or have multiple 
barriers to employment. This arrangement lets each system do what it 
does best. SCSEP grantees have valuable experience in serving 
individuals with multiple barriers to employment, and their expertise 
is best tapped when serving those older individuals truly in need of 
their assistance.
                        one-stop center services
    Question 5. DOL has said that under their proposal WIA One-Stops 
would serve seniors between the ages of 55-64. However, WIA services 
were developed for people who are likely to have a long working 
lifetime ahead, and One-Stops are not geared to older workers with 
multiple barriers to employment. How will DOL assure that people in 
this age range receive appropriate employment training and placement 
services?
    Answer 5. WIA services were developed to provide universal access 
to all workers and job seekers. One-Stop Career Centers serve a wide 
variety of individuals, including older workers and those with multiple 
barriers to employment. The Department has taken several steps to 
ensure that One-Stop Career Centers remain a robust source of 
assistance for all older workers.
    SCSEP is a required partner in the One-Stop Career Centers. It is 
important to note that SCSEP serves only approximately 1 percent of the 
eligible population. Therefore, One-Stop Career Centers already need to 
serve the older worker population; in Program Year 2004, 13,544 
participants exited the WIA Adult program, and 21,626 participants 
exited the WIA Dislocated Worker program. The Department has undertaken 
several activities to improve services to this population. The 
Department has issued a Protocol for Serving Older Workers in the 
workforce investment system. The goal of this protocol is to enhance 
the services provided to older workers and to infuse the One-Stop 
Career Center system with innovative strategies for tapping into this 
labor pool. Proposed action steps were identified for six major 
stakeholders, including One-Stop Career Centers.
    The Department also plans to issue additional policy guidance, fund 
demonstrations, and disseminate best practices to encourage better 
services for older workers at One-Stop Career Centers. In addition, a 
newly-formed Inter-Agency Task Force on the Aging of the American 
Workforce will examine how an array of Federal programs, including but 
not limited to those available in the One-Stop Career Centers, can 
better serve older workers.
               older worker participants in wia services
    Question 6. What is the extent of older worker participation in all 
services authorized under the Workforce Investment Act?
    Answer 6. The tracking and reporting system for our program is 
based on exiters, and of individuals who exited the WIA Adult program 
in Program Year 2004, 13,544, or 6 percent, were 55 and over. Of 
individuals who exited the WIA Dislocated Worker program, 21,626, or 
12.1 percent, were 55 and over. The chart below provides details on 
services received by these WIA participants. Also, the Wagner-Peyser 
program served 1,389,027 job seekers aged 55 and over, representing 9.8 
percent of total Wagner-Peyser program job seekers.

        WIA Services Received by Participants 55 Years and Older
------------------------------------------------------------------------
                                           WIA Adult      WIA Dislocated
                                            Program      Workers Program
------------------------------------------------------------------------
All Exiters...........................           13,544           21,626
Core Services Only....................      2,844 (21%)      3,460 (16%)
Core and Intensive Services, No              5,418 (40%      8,434 (39%)
 Training.............................
Training Services.....................      5,418 (40%)      9,731 (45%)
------------------------------------------------------------------------

             one-stop center performance and older workers
    Question 7. What evidence or data is there to show that One-Stops 
are performing well in serving older workers?
    Answer 7. SCSEP is a required partner in the One-Stop Career 
Centers. In some cases, One-Stop Centers and SCSEP have found 
innovative ways to serve older workers. For instance, the One-Stop 
Center in Akron, Ohio has established a job club for mature workers 
that serves SCSEP participants as well as WIA Adult and Dislocated 
Worker participants. SCSEP and WIA staff work together to link SCSEP 
participants to the services available through the One-Stop Center, 
such as job search assistance and specialized transportation.
    Bridgeport, Connecticut's One-Stop Center has established a Mature 
Worker committee to examine One-Stop services to older workers and has 
piloted an awareness and advocacy campaign called ``Are You Ready?'' 
designed to raise awareness among area employers of demographic changes 
and of the opportunity older workers present to fill skill gaps.
    To ensure that all One-Stop Career Centers are as successful as the 
two mentioned here, the Department has issued a Protocol for Serving 
Older Workers in the workforce investment system. The goal of this 
protocol is to enhance the services provided to older workers and to 
infuse the One-Stop Career Center system with innovative strategies for 
tapping into this labor pool. Proposed action steps were identified for 
six major stakeholders, including One-Stop Career Centers.
    The Department also plans to issue additional policy guidance, fund 
demonstrations, and disseminate best practices to encourage better 
services for older workers at One-Stop Career Centers.
    Finally, the newly-formed Inter-Agency Task Force on the Aging of 
the American Workforce will examine how an array of Federal programs, 
including those available in the One-Stop Career Centers, can better 
serve older workers.
  dol's reauthorization proposal and performance of national grantees
    Question 8. [Regarding DOL's proposal to provide all SCSEP money to 
States.] How does this proposal acknowledge the successful training and 
placement record of national grantees, a record that in many cases has 
been compiled over several decades?
    Answer 8. The Department of Labor proposes that States conduct a 
competition for funds to run the SCSEP program in each State. Based on 
guidelines and priorities provided by the Department, States would 
select one or more grantees to operate the program, thereby simplifying 
administration, eliminating duplication, and creating a more cohesive 
program. The competition would have to be conducted at least once 
during each 3-year period. Eligible entities would include non-profit 
agencies and organizations, for-profit agencies and organizations, 
agencies of a State government (under terms and conditions to assure 
their designation through full and open competition), or a consortium 
of agencies and/or organizations, including political subdivisions.
    Under our proposal, we would expect the successful national aging 
organizations to continue to play a major role in operating the SCSEP 
program in the States. However, the program would be streamlined by 
avoiding the current situation of having multiple national sponsors and 
the State program operating side-by-side in a State, sometimes 
administering programs with small numbers of positions. Many of the 
national organizations are currently sub-grantees for State programs, 
and would continue to be eligible for State sub-grants, where State 
competition rules allow. For successful national grantees, past 
performance records should allow them to be quite competitive for State 
requests for proposal competitions.
               transition from national to state grantees
    Question 9. [Regarding DOL's proposal to provide all SCSEP money to 
States.] Since most of the program funds now go to national sponsors, 
how will implementation of this proposal avoid creating massive 
dislocation in the enrollment, training and placement of low-income 
older workers who have multiple barriers to employment?
    Answer 9. DOL has experience in grantee transition, and we are 
confident that a transition from national to State grantees would not 
dislocate any current participants. Using lessons learned from the 2003 
competition, DOL is prepared to assist grantees with additional costs 
associated with the transition; recaptured funds are available for this 
purpose. Grantees are allowed to use grant funds for transition costs, 
and all current grantees have transition plans as part of their current 
grant; applicants must identify plans in their application. DOL is also 
prepared to provide technical assistance through written guidance, 
regular conference calls, a national call center, and onsite technical 
assistance, when and where necessary.
           fringe benefits and dol's reauthorization proposal
    Question 10. What is the rationale for eliminating all fringe 
benefits for SCSEP participants?
    Answer 10. Fringe benefits are not provided in any other training 
program that ETA administers and we do not feel they are appropriate 
for a training program such as SCSEP. Therefore, the administration's 
reauthorization proposal eliminates most fringe benefits, but retains 
those required by law. We have heard from several grantees who support 
the elimination of fringe benefits, as these benefits draw resources 
away from training and employment-related services to participants. 
Fringe benefits may also act as a disincentive for participants to 
leave the program and move into unsubsidized positions, which leads to 
better wages and benefits.
                    2006 competition and performance
    Question 11. We still do not even have results of the performance 
measures that were required in the 2000 reauthorization. Why does DOL 
want to do this new competition now?
    Answer 11. Although the Department is eager to analyze the results 
from the last few years' performance data, past performance is not the 
sole reason for regular competition. Competition is the stimulus for 
new ideas and high-quality service, and a cornerstone of Federal 
procurement policy. Regular competition also helps ensure that programs 
are being administered in an efficient and cost-effective manner.
                  2006 competition and reauthorization
    Question 12. How is this new re-competition on the eve of OAA and 
SCSEP reauthorization an efficient expenditure of time for DOL 
officials, Department resources and the program management efforts of 
thousands of SCSEP project sites?
    Answer 12. By competing national grants now, the Department can 
encourage efficiency in grantee operations, and in the solicitation, 
emphasize the workforce development and training focus given to the 
program by the 2000 Amendments to the Older Americans Act.
                2006 competition effect on participants
    Question 13. What consideration did the Department give to the 
lives of 46,000+ low-income, older enrollees who may find themselves 
being shifted again (as they were in 2003) among various reporting 
bureaucracies?
    Answer 13. At the time of the 2003 competition, many participants 
and grantees were concerned about the effects of the transition on 
participants. The Department can say with authority that every single 
participant was transitioned successfully. Competition does not need to 
cause any disruption among services participants receive, and the 
Department is committed again to ensure the 2006 competition is equally 
as successful.
    DOL is prepared to assist grantees with additional costs associated 
with the transition, as it did following the transition after the 2003 
competition. Program Year 2004 recaptured funds are available for this 
purpose. Grantees are allowed to use grant funds for transition costs, 
and all current grantees have transition plans as part of their current 
grant. Applicants were required to include contingency plans for 
tracking participants in their 2003 application, and in the ongoing 
competition.
    DOL has identified specific responsibilities for itself, national 
grantees and State grantees to ensure a smooth transition. DOL will 
provide orientation to all national grantees to provide information on 
program administration and management. After the competition, as part 
of the transition, DOL will begin regular conference calls between 
Federal and regional DOL staff and national grantees to quickly address 
any transition issues. DOL will also provide assistance through a 
national call center, and provide on-site technical assistance, when 
and where necessary.
                 2006 competition and contiguous states
    Question 14. What is the rationale to require that each national 
grantee serve only contiguous counties within a given State?
    Answer 14. In order to distribute resources more equitably, the new 
SGA ensures a fair distribution of positions, or ``slots,'' among 
counties in a State, and requires that national grantees serve 
contiguous counties. This will ensure that services to older workers 
are effectively managed, and it brings order to the current fragmented 
service delivery structure. Please note that organizations applying for 
Pacific Islander and Asian American grant funds or Indian grant funds 
do not have to apply for contiguous counties.
               2006 competition and targeted populations
    Question 15. How will DOL assure that this requirement does not 
create major problems for sponsors proposing to serve targeted 
populations, which may be concentrated in certain non-contiguous areas 
within a State, e.g., Hispanic or African-American elderly?
    Answer 15. The Department's purpose is not to stovepipe employment 
programs by focusing on specific groups, but to ensure that all 
programs are able to serve the full range of eligible participants. All 
SCSEP grantees, including Asian Pacific Islander and Indian 
organizations specifically mentioned in Title V of the Older Americans 
Act, are required to serve the eligible populations that live within 
their service area. Organizations which have been successful in serving 
Hispanic or African-American elderly now have the opportunity to apply 
their expertise to a broader community, benefiting the entire eligible 
population in their service area. The Department's proposal to reduce 
duplicative administrative expenses and to focus more program resources 
on eligible individuals will improve services to minority and non-
minority elderly alike.
                     2006 competition and maryland
    Question 16. What does this do to Maryland? It is my understanding 
that one national sponsor can bid for the whole State. Where does this 
leave the State SCSEP program?
    Answer 16. Applicants must submit a request for at least 10 percent 
of the State national grant allocation or $1.6 million, whichever is 
greater. In Maryland, which has 655 positions for bid in the national 
grantee competition, the $1.6 million threshold (224 positions) 
applies. For the State of Maryland, national grantees may bid for all 
or part of the State, but each bid must meet the minimum funding 
requirement. In all States, national grantees are bidding on national 
grantee positions only. State SCSEP programs and allocations are not 
affected by the competition.
                2006 competition awards and performance
    Question 17. How does DOL consider an applicant's past performance 
with employment training for older workers in evaluating applications 
and awarding a new round of SCSEP grants?
    Answer 17. When evaluating proposals under the current national 
competition, the Department will examine every grant applicant's 
capability, including the organization's experience with serving older 
workers. All applicants will be rated using a ranking criteria based on 
points, established by the SGA in accordance with current law. This SGA 
requires that responses be thoughtful and reflect a strategic vision.
    The SGA evaluation criteria are as follows:
    1. Design and Governance--15 points
    2. Program and Grant Management Systems--10 points
    3. Financial Management System--10 points
    4. Program Service Delivery--40 points
    5. Performance Accountability--25 points

Response to Questions of Senator Murray

                       competition and transition
    Question 1. Can you please explain the kind of transition 
envisioned by DOL if these regulations are implemented on July 1, 2006 
as scheduled? Is DOL considering any delay in implementation? Can you 
also explain how these proposed changes adhere to the 2000 
Reauthorization Act?
    Answer 1. DOL has not offered new regulations; the regulations for 
the SCSEP program were issued in April 2004. The Department has issued 
a Solicitation for Grant Applications (SGA) for national SCSEP 
grantees, which is consistent with Title V of the Older Americans Act, 
and which neither changes nor implements any requirements not 
authorized under Title V of the Older Americans Act.
    That said, the Department envisions a smooth transition after the 
national grantee competition. DOL is prepared to assist grantees with 
additional costs associated with the transition, as it did following 
the transition after the 2003 competition. Program Year 2004 recaptured 
funds are available for this purpose. Grantees are allowed to use grant 
funds for transition costs, and all current grantees have transition 
plans as part of their current grant; applicants must identify plans in 
their application.
    DOL has identified specific responsibilities for itself, national 
grantees and State grantees to ensure a smooth transition. DOL will 
provide orientation to all national grantees to provide information on 
program administration and management. After the competition, as part 
of the transition, DOL will begin regular conference calls between 
Federal and regional DOL staff and national grantees to quickly address 
any transition issues. DOL will also provide assistance through a 
national call center, and provide onsite technical assistance, when and 
where necessary.
    In response to concerns expressed by Senators DeWine and Enzi, on 
April 4, 2006, the Department extended the timeframe for all applicants 
to respond to the SGA from April 17, 2006, to May 26, 2006, giving 
applicants an additional 39 days to respond. In addition, we recently 
modified the transition period and will extend current grantees until 
July 31, 2006, to begin funding new grantees on August 1, 2006.
                           community service
    Question 2. Why would the Administration propose increasing the 
focus on private sector employment at a time when demand for social and 
community services will only increase?
    Answer 2. The 2000 Amendments to the Older Americans Act emphasized 
SCSEP's focus as a training program. This focus is further strengthened 
through the Department's reauthorization proposal, although community 
service work experience remains as a vital and important component of 
the program.
    The aging and retirement of the baby boom generation, combined with 
lower birth rates, will likely result in labor shortages in some 
industries and geographic areas. Employers are losing their most 
experienced workers to retirement just as labor force growth is 
slowing, with the result that shortages of workers with the right 
skills needed by employers could become common. Older Americans are a 
valuable resource for filling these shortages, provided that they are 
equipped with the right skills. Also, as Americans live longer and 
healthier lives, many will want to, and expect to, remain in the labor 
market longer, and the vast majority of job opportunities are in the 
private sector.
    To better take advantage of employment opportunities in the private 
sector, we propose to offer more flexible training options in the 
reauthorized program. Training options may include: community service 
or other work experience, on-the-job training, customized training, and 
classroom instruction, lectures, seminars, individual instruction, or 
other arrangements, including but not limited to, arrangements with 
other workforce investment programs. We also propose to allow grantees 
to spend a greater portion of their funds for training.
       Response to Question of Senator Kennedy by Ignacio Salazar
    Question 1. One of the purposes of SCSEP is to work with and assist 
hard-to-serve, low-income seniors, with a special focus on minorities 
and those seniors in rural areas.
    How does your organization address the needs of the hard-to-serve 
population? What services are provided for individuals with special 
needs?
    Answer 1. SER Jobs for Progress National for the past 41 years, 
focused on the hard-to-serve American populations. SER works with both 
youth and elderly through such programs as: after school programs, head 
start programs, GED and ESL programs, seniors programs, migrant farm 
worker programs, etc. Special needs individuals are also served through 
our programs.
      Response to Questions of Senator Kennedy, Senator Mikulski, 
                    and Senator Murray by Kent Kahn

Response to Questions of Senator Kennedy

    Question 1. The Department has suggested that WIA One-Stop Centers 
will be able to assist those individuals who are between the ages of 55 
and 64 to obtain job training and employment. They also suggest that if 
a SCSEP participant can't find unsubsidized employment after 2 years in 
the program they should be referred to One-Stops.
    In your opinion, do One-Stops have the ability to effectively serve 
those individuals? Do the One-Stops pay for intensive training 
services, and provide extensive counseling services for SCSEP 
participants?
    Answer 1. The One-Stops are not accessible to many of the 
participants served by Experience Works in Ohio and other States. One-
Stop Service Centers are moving more toward automated self-service and 
this is a barrier for many older workers even those 55 to 64. If we 
want to modernize the SCSEP and prepare for the baby boom generation, 
we need to have the ability to continue serving those individuals who 
are 55 to 64 and evaluate the ability of the larger workforce system to 
effectively serve older workers. Reconsider the age change option after 
WIA has a proven record in serving older workers and don't let those 
individuals fall through the cracks. This next 5 years might prove that 
due to the growth of the aging population, both WIA and SCSEP should 
have the ability to help individuals who are 55 and older.
    Currently, intensive and training services are not available to 
SCSEP participants either because funds are limited or one-stop 
operators don't want to serve older workers because of the performance 
measures disincentives.

    Question 2. The 13 national grantees came together with a list of 5 
principles that you felt should be considered for reauthorization of 
title V. One of the principles was to increase interaction and 
communication with the Administration on Aging.
    How can Congress strengthen the role of the Administration on Aging 
in SCSEP?
    Answer 2. The Administration on Aging should have input on the 
purpose and design of the SCSEP program. The aging network 
infrastructure struggles to deliver aging services adequately. Service 
providers depend on volunteers in many cases. SCSEP used to be more 
valuable in the delivery of aging services when community service was a 
higher priority. DOL should also consult with AOA on projects such as 
designing the demonstration and experimental training programs to get a 
better understanding on how seniors learn best, etc.

Response to Questions of Senator Mikulski

       national scsep/state scsep providers' reactions to dol's 
                        reauthorization proposal
DOL's Employment vs. Community Service Focus Proposal
    Question 1. How would changing the current dual focus of SCSEP away 
from community service and employment to only employment change in 
focus impact the aging network and other community institutions that 
have long made constructive use of SCSEP community service placements, 
such as senior centers, nutrition programs, schools, and health and 
social service providers?
    Answer 1. It is our opinion that the program is in need of 
constructive changes. One major focus is for the program to concentrate 
on employer/business needs sooner. By placing more emphasis on funding 
employer/business activities, participants can emerge themselves in 
these activities reducing those individuals that spend too much time in 
the community service component. The current system utilizes not for 
profit and public entities to serve as host agencies where program 
participants conduct their training; while the intent of the program is 
to place participants into unsubsidized employment within the for-
profit sector, a disconnect occurs in the transition between the 
training component and the job placement component. The ideal mixture 
should be a heavier concentration on employer/business activities while 
leaving the community service component in place. This will allow 
participants to continue making contributions to their communities, via 
this vehicle, but limit the extent of community service time.

    Question 2. Has there been any analysis of the contributions 
seniors have made to their community through their placements?
    Answer 2. At midyear of Program Year 2005/2006, Experience Works 
placed 18 percent of the SCSEP participants into services supporting 
the elderly community. Last year, Program Year 2004/2005, Experience 
Works placed 20 percent into services supporting the elderly. In 
Program Year 2003/2004, Experience Works placed 21 percent into 
services for the elderly. During Program Year 2002/2003, Experience 
Works placed 23 percent into services supporting the elderly. And 
during Program Year 2001/2002, Experience Works placed 27 percent into 
services supporting the elderly. During the years mentioned above, the 
SCSEP was pushed more towards an employment program and each year 
services to the elderly diminished. If community service is de-
emphasized even more in this reauthorization, services to the elderly 
will continue to go away.
DOL's Age Eligibility Proposal
    Question 3. If the DOL age proposal was adopted, how many seniors 
currently enrolled in your programs would no longer be eligible?
    Answer 3. One-half of our current participants would be affected. 
In our opinion, the change should be 60 and above, and not 65 or above. 
In this instance we must proceed conservatively in order to minimize 
the risk of individuals not being served.

    Question 4. How would this new age requirement impact the seniors 
in your programs?
    Answer 4. The impact is dependent upon whether or not the 
participants are grandfathered. If the age requirement would only 
affect new enrollee's, there would be no effect on current 
participants. If current enrollee's are grandfathered, approximately 
one-half of our current participants would have to leave the program.

    Question 5. DOL has stated that under their proposal WIA One-Stops 
would serve seniors between the ages of 55-64. Do you believe that WIA 
is currently serving seniors in this age bracket appropriately?
    Answer 5. Serving them, yes; however, ``are they being served 
adequately?'' Due to a variety of reasons many needs are not being met; 
one reason being that seniors typically do not access the one-stops for 
services.
    One-Stop funding is limited and access is a problem for many SCSEP 
participants, especially those who live in rural communities or who 
have transportation problems. According to feedback from Experience 
Works Regional Directors last Friday, many one-stops across the Nation 
are being shut down and services are being automated, access via 
computer. The majority of the older workers served by the SCSEP do not 
know how to use a computer. Eliminating or limiting services to the 55 
to 64 would leave a big gap in services available to this age group. 
Experience Works' last quarterly report to DOL indicates that 57 
percent of the participants are between the ages of 55 to 64. Many 
times these individuals are more desperate than those who have the 
safety net of Social Security. The little income that they earn helps 
take care of necessities. When the basics are not taken care of, the 
ability to focus on upgrading skills or obtaining new skills is 
difficult because, how to pay the rent, utilities, pay for medication, 
and buy food is foremost in the minds of the participants.
    According to GAO, over half of the grantees expressed concern about 
getting intensive and training services at the One-Stop centers. As you 
already know, SCSEP is a partner at the One-Stops and when older 
workers go to the One-Stops, those individuals are referred to the 
SCSEP grantee(s) for services. And, WIA has disincentives that 
discourage providing intensive or training services, those services 
that currently require performance measure tracking.
   national scsep/state scsep providers' reactions to dol's proposal 
              for re-competition of scsep grants this year
DOL's Contiguous Counties and Large Grant Proposal
    Question 6. How would this new contiguous county requirement affect 
your SCSEP program?
    Answer 6. Dramatically, we would have to adjust to: new locations, 
project start-ups, and transferring of some current projects to new 
providers.

    Question 7. How would a national grantee or a State assure that 
this requirement does not create major problems for sponsors proposing 
to serve targeted populations, which may be concentrated in certain 
non-contiguous areas within a State, e.g., Hispanic or African-American 
elderly?
    Answer 7. Structuring the competition this way takes away choice 
for older workers. Now in many counties, the older workers have a 
choice about who provides him/her with services. Grantees provide 
services differently and not every individual who is eligible and needs 
SCSEP services will benefit with only one grantee-operating model to 
choose from. The concept is the same as not every learner learns alike. 
Different learning methods give all learners the opportunity to gain 
knowledge and excel. Also, not requiring every applicant to compete 
using the same rules is unfair. However, minority populations, 
especially those with language barriers, will not be served well if the 
contiguous county is required for the grantees that primarily service 
those older workers.
    Special consideration should be given to these grantees; the key is 
to continue to build on what has been achieved in the past few years. 
In which, such grantees have increased services to the Hispanic and 
African-American communities.
                         scsep provider network
How SCSEP Provider Network Could be Used During a Public Health 
        Emergency
    Question 8. Can you give examples of how the infrastructure you 
have created with the senior community on the local level could be 
helpful during a public health emergency?
    Answer 8. The SCSEP grantee network has been able to effectively 
support disaster relief efforts for many years due to its vast 
infrastructure. Recently after Hurricane Katrina and Rita hit, staff 
and participants were involved in many States, not just the States that 
were directly affected by the hurricanes, in many ways. Participants 
still perform community service after all the volunteers go back to 
their regular lives. SCSEP participants staffed phone banks, shelters, 
triage centers, information and referral centers, helped individuals 
fill out applications for FEMA and emergency work assignments through 
DOL emergency funding. The SCSEP is a one-of-a-kind program that serves 
low-income, low-skilled older workers and at the same time provides 
valuable services to the community. A public health emergency could be 
supported and staffed in many of the same ways staff and participants 
helped during the recent hurricanes. No other government program is 
currently meeting this need while also providing efficient and 
effective community services.
    Affective communication is essential during any emergency. Our 
network, can be utilized to transmit communications at the local level.

Response to Questions of Senator Murray

    Question 1. I assume you all have seen the Administration's 
proposal to re-compete the contracts for grantees participating in the 
title V program. Do you have any concerns about these proposals and the 
impact they could have on current and future program participants?
    Answer 1. We believe that when the performance measures were 
established, performance would trigger the competition. We are not 
opposed to competition and think competition is good to maintain and 
add grantees that are doing a good job. Grantees should be held 
accountable for performance. Strengthen the program by keeping grantees 
that are doing a good job and compete the funding when grantees are not 
achieving performance measures.
    The effective delivery of services is based on building an 
infrastructure or network of partners and relationships with local 
businesses, organizations that help with supportive services and 
provide a safety net when needed as well as training partners and 
faith-based and community organizations. This infrastructure is not 
built over night; it takes a long time to establish the relationships 
and trust. Participants' successes are also based on the relationship 
and trust that is developed and nurtured over time with the local 
grantee staff. Uprooting or abolishing these infrastructures, 
relationships and trust every 3 years will not be in support of 
continuous improvement and assuring that the SCSEP has the best 
grantees delivering services. This method of competition will also have 
a negative impact on the ability of grantees to provide older workers 
with community services, supportive services, training, and placement 
services when grantees' territories are moved around every 3 years and 
these relational infrastructures have to be rebuilt. Experience Works 
is a good example of that happening after the competition for PY 2003/
2004. Prior to the competition, placement achievement was almost 40 
percent and service level was almost 200 percent. The second year after 
the competition, the placement achievement was approximately 22 percent 
and the service level was only 153 percent. We believe that the current 
SGA will again disrupt the services to the participants and have the 
impact described above.

    Question 2. I heard a great deal in 1995 about how we need to 
streamline the job training process. Job training programs were spread 
over several agencies and were often fragmented at the State and local 
level. As Ranking Member of the Employment and Workforce Subcommittee 
of this committee, I have learned a great deal about job training and 
Workforce Investment Act programs. But, I do think that older workers 
are a different challenge and traditional job training or retraining 
programs are ill equipped to meet the challenges of this population, 
especially for minorities.
    The vision or intent of the original Older Americans Act was to 
fill gaps in safety net programs but also allow older Americans to live 
with dignity and purpose. Employment training was an important part of 
this original mission.
    Can you explain to this committee why title V is unique and why it 
should remain a strong component of the Older Americans Act?
    Answer 2. Title V should definitely remain a part of the Older 
Americans Act and continue to have a dual purpose of community service 
and employment. The program addresses not only the individual barriers 
the older workers bring with them to the work environment that have not 
allowed them to get a job, but also the barriers that community 
services agencies have in recruiting volunteers the agencies need to 
continue to provide quality services. The SCSEP provides a win-win 
outcome for both the participant and the agency. Policymakers need to 
take a strong look at the rich history of the SCSEP and continue to 
develop an infrastructure that supports the civic engagement and social 
capitol aspects of this program. There continues to be a need for older 
workers to have access to employment services that place an emphasis on 
part-time paid work to maintain their self-sufficiency. The public 
feels good about a program that is not an entitlement program--but 
rather a program where people are not only working for what they get, 
but they are providing locally needed assistance that taxpayers can see 
for themselves. They feel good about knowing people ``like their 
grandmother'' are being made to feel useful and given a reason for 
going on. And, particularly in rural remote localities, these 
individuals help the communities stay alive.
    The community service component of the SCSEP is a unique, 
effective, and efficient method for serving low-income older 
individuals, with multiple barriers to employment, who are desperate 
for work. Particularly in rural locations where jobs are scarce for 
even the most qualified workers, the SCSEP provides value-added 
services, leverages limited funding, and meets the unique training and 
employment needs of older workers while at the same time building 
capacity of local community and faith-based organizations. Particularly 
in many rural communities, SCSEP is a vital resource for agencies 
struggling to serve growing needs. With the demographic trends of an 
aging population, now more than ever, the SCSEP provides a proven 
solution that should be expanded to meet these growing needs.
    Community service opportunities help participants productively 
transition from unemployment in a way that preserves their dignity and 
self-worth. Each community service assignment provides opportunities to 
learn, earn, and serve others. The service-learning model is uniquely 
suited to older learners who can marry their lifetime of experience 
with the new skills they need to be competitive in the workplace of the 
future. Community services prepares participants to perform demand and 
market-driven skills needed by local employers, builds confidence, 
workplace savvy, references, and a reputation for getting the job done 
right. Unlike persons out of the workforce who are searching for jobs 
who lose confidence during a job search, participants performing 
community service have a support system that boosts them up and coaches 
them toward success. This is truly a winning partnership.
      Response to Questions of Senator Kennedy, Senator Mikulski, 
                  and Senator Murray by Tony Sarmiento

Response to Questions of Senator Kennedy

    Question 1. I'm concerned about the Department's proposals 
surrounding the community service aspect of SCSEP. The Department says 
it's not eliminating community service.
    Do you feel that the Department's proposals will lead to the 
elimination of community service in SCSEP?
    Answer 1. The 2000 Amendments to the Older Americans Act (and 
current regulations) require all SCSEP participants to be assigned to a 
host agency and employed in community service. Our subgrantees, State 
SCSEP coordinators, and others have expressed great concern that 
community service could eventually disappear if:
    <bullet> it is no longer a required activity of all SCSEP 
participants, and instead becomes optional and just one of several 
allowable activities for SCSEP participants,
    <bullet> ``community services provided'' becomes a secondary 
program performance indicator of less consequence than unsubsidized 
placement and its related indicators.
    In addition. H.R. 5293's proposal ``that not less than 50 percent 
of hours worked (in the aggregate) shall be in community service 
employment-based training'' could also drastically cut back community 
service if 50 percent becomes a ceiling rather than a floor for 
community service. According to the DOL Web site (http://
www.doleta.gov/Seniors/other	docs/04Highlights.pdf), in PY 2004 SCSEP 
participants worked a total of 46,816,315 hours, of which 45,766,196 
hours (or 97 percent) were spent in community service and 1,050,119 
hours in other training. If 50 percent of the hours worked by SCSEP 
participants were reassigned to on-the-job training with private, for-
profit employers or classroom training activities, the aging network 
and other social service agencies would lose over 23 million hours of 
paid staff.

    Question 2. The last competition for National grantees was in 2003, 
and the regulations for SCSEP weren't published until 2004.
    In your opinion, has the Department spent an adequate amount of 
time evaluating current national grantees to constitute a re-
competition? How will the re-competition affect the services you 
provide to your SCSEP participants?
    Answer 2. We agree with the comments of the GAO in their testimony 
to the Senate Special Committee on Aging on April 6th. It should be 
noted that during PY 2003 and PY 2004, the two largest national 
grantees added during the 2003 grant competition did not achieve the 
minimum unsubsidized placement goal of 20 percent currently required by 
the Older Americans Act. The other two national grantees added in 2003 
achieved 20 percent or more placement rate in PY 2004, probably because 
each had prior experience operating SCSEP as a subgrantee before 
becoming a national grantee.
    In SSAI's work with new subgrantees, we know that organizations 
without prior experience operating SCSEP face many challenges and a 
steep learning curve before they are able to operate SCSEP at an 
acceptable level.
    We are concerned that major changes in national grantees' service 
areas (which we expect as a result of the new contiguous county 
requirement) will result in fewer eligible persons being served by the 
total SCSEP network (including State and national grantees) and 
significant disruption of services by participating host agencies.

Response to Questions of Senator Mikulski

       national scsep/state scsep providers' reactions to dol's 
                        reauthorization proposal
DOL's Employment vs. Community Service Focus Proposal
    Question 1. How would changing the current dual focus of SCSEP away 
from community service and employment to only employment change in 
focus impact the aging network and other community institutions that 
have long made constructive use of SCSEP community service placements, 
such as senior centers, nutrition programs, schools, and health and 
social service providers?
    Answer 1. The proposed change in program focus would greatly reduce 
the capacity of many nonprofit and public agencies that provide 
essential services to older persons and the general community. Combined 
with cutbacks in funding from local United Ways, foundations, and 
Government, cutbacks in the availability of SCSEP participants may 
cause some agencies to close down operations.
    Since 2003, DOL's increased emphasis on unsubsidized employment and 
deemphasis on community service may have already led to fewer SCSEP 
participants being assigned to the host agencies in the aging network 
by several SCSEP grantees and subgrantees. This may be due to host 
agencies such as Meals on Wheels, senior nutrition centers, etc., may 
provide appropriate on-the-job training to SCSEP participants, they 
rarely have sufficient funding to hire SCSEP participants on their own 
payrolls. As a result, SCSEP providers may be assigning more 
participants to agencies that are more likely to hire participants as 
unsubsidized placements.

    Question 2. Has there been any analysis of the contributions 
seniors have made to their community through their placements?
    Answer 2. All SCSEP grantees, both national and State, have been 
required to report on a quarterly basis to DOL not only the total 
number of hours of community service employment performed by all SCSEP 
participants, but a breakdown on the hours in service to the elderly 
and hours in service to the general community. This data is available 
from DOL for the current Program Year 2005 and prior Program Year 2004.
    For example, from July 2005 through March 2006, Senior Service 
America's SCSEP participants contributed over 3.8 million hours of 
community service, with over 1 million in service to the elderly 
through nutrition programs, senior centers, and other caregiving 
assistance.
DOL's Age Eligibility Proposal
    Question 3. If the DOL age proposal was adopted, how many seniors 
currently enrolled in your programs would no longer be eligible?
    Answer 3. Over half.

    Question 4. How would this new age requirement impact the seniors 
in your programs?
    Answer 4. Many would be left without any alternative source of 
assistance.

    Question 5. DOL has stated that under their proposal WIA One-Stops 
would serve seniors between the ages of 55-64. Do you believe that WIA 
is currently serving seniors in this age bracket appropriately?
    Answer 5. No. As GAO has pointed out in their testimony about SCSEP 
to the Senate Special Committee on Aging on April 6th, the existing WIA 
performance measures represent significant structural disincentives 
that discourage One-Stops from providing WIA intensive services to 
SCSEP participants and other older workers seeking part-time 
employment. These disincentives were also documented by GAO study 03-
350. As a result, in one recent year the entire national One-Stop 
system served less than 40,000 job seekers 55 and over, from all income 
and education levels, of which less than 4,000 were 65 and over. WIA 
performance measures must be revised before WIA will begin to serve 
seniors appropriately.
   national scsep/state scsep providers reactions to dol's proposal 
              for re-competition of scsep grants this year
DOL's Contiguous Counties and Large Grant Proposal
    Question 6. How would this new contiguous county requirement affect 
your SCSEP program?
    Answer 6. This new requirement poses great challenges for many of 
our current subgrantees operating SCSEP. For some, the contiguous 
county requirement will effectively terminate their SCSEP program 
despite 30 or more years of high performance because legal restrictions 
or organizational capacity preclude them from expanding their service 
area to meet the requirement.
    Although the grant application submitted by SSAI on May 26, 2006 is 
for nearly $89 million for an 11-month period, due to the contiguous 
county requirement we were not able to include nine longstanding 
subgrantees in our application, including the city of Austin (TX); 
Project NOW in Rock Island (IL); Dr. Piper Center for Social Services 
in Fort Meyers (FL); and the Marion County Commission (WV). Starting 
next Program Year, we will no longer be operating any SCSEP program in 
Florida and West Virginia.
    Other subgrantees have been forced to expand their program 
significantly in order to be eligible to continue their program. For 
example, the Amarillo Senior Citizens Association has proposed to 
expand their SCSEP program from serving 2 counties with 51 positions to 
serving 49 counties with 279 positions in the Texas Panhandle. Another 
subgrantee, Community Options, now serving 40 authorized slots in San 
Bernardino (CA), is now committed to serve not only 186 positions in 
San Bernardino County but also 150 more positions in Riverside County.

    Question 7. How would a national grantee/or a State assure that 
this requirement does not create major problems for sponsors proposing 
to serve targeted populations, which may be concentrated in certain 
non-contiguous areas within a State, e.g., Hispanic or African-American 
elderly?
    Answer 7. The contiguous county requirement places all smaller 
organizations at a great disadvantage in this grant competition. Since 
the sponsors that specialize in serving targeted populations tend to be 
smaller organizations, major problems are unavoidable.
                         scsep provider network
How SCSEP Provider Network Could Be Used During a Public Health 
        Emergency
    Question 8. Can you give examples of how the infrastructure you 
have created with the senior community on the local level could be 
helpful during a public health emergency?
    Answer 8. Service America operates SCSEP through a network of local 
networks. Currently, our subgrantees are 108 local government, 
community-based, and faith-based organizations in 23 States and the 
District of Columbia. In turn, each of our subgrantees maintains its 
own network of diverse government, community-based, and faith-based 
organizations that serve as the ``host'' agencies where SCSEP 
participants are working to provide services to their community. 
Together, Senior Service America and its subgrantees can tap over 2,800 
local host agencies and their staffs to assist in a public health 
emergency.

Response to Questions of Senator Murray

    Question 1. I assume you all have seen the Administration's 
proposal to re-compete the contracts for grantees participating in the 
title V program. Do you have any concerns about these proposals and the 
impact they could have on current and future program participants?
    Answer 1. Implementation of the new contiguous county requirement 
in the short period of time allowed by the SGA will make disruption of 
participants and host agencies extremely difficult to avoid. In 2003, 
the entire SCSEP delivery system (both national and State grantees) 
served fewer participants than in PY 2002. It's very likely that if new 
grantees without prior SCSEP program experience are funded starting 
August 1, 2006, fewer participants will be served in PY 2006.
    We recommend that future grant competitions be designed so that 
past performance is a major factor in the selection process and that 
the grants last for 5 years (assuming satisfactory performance). This 
approach would support increased accountability and innovation among 
grantees, but also establish a stable program delivery structure to 
minimize disruption to participants and host agencies.

    Question 2. I heard a great deal in 1995 about how we need to 
streamline the job training process. Job training programs were spread 
over several agencies and were often fragmented at the State and local 
level. As Ranking Member of the Employment and Workplace Safety 
Subcommittee of this committee, I have learned a great deal about job 
training and Workforce Investment Act programs. But, I do think that 
older workers are a different challenge and traditional job training or 
retraining programs are ill equipped to meet the challenges of this 
population, especially for minorities. The vision or intent of the 
original Older Americans Act was to fill gaps in safety net programs 
but also allow older Americans to live with dignity and purpose. 
Employment training was an important part of this original mission. Can 
you explain to this committee why title V is unique and why it should 
remain a strong component of the Older Americans Act?
    Answer 2. In 2006, our Nation is largely underprepared for the 
aging of the baby boomers. Like most of our major institutions, the 
public workforce system has focused primarily on youth and the core 
working-age population, especially since the funding set-aside for 
older workers ended with JTPA in 1998.
    SCSEP is unique and should be continued because it:

    1. has a legislated mission of providing community services, which 
is not shared by WIA. Meals on Wheels, senior centers, and others in 
the aging network and other social services depend on SCSEP 
participants to help them staff their agencies;
    2. is targeted to serve disadvantaged older adults, including those 
whom WIA was unable to assist;
    3. provides income to participants while they are receiving 
training; and
    4. has funded the largest network of diverse organizations 
experienced in serving the needs of the older worker and job-seeker.
    Finally, the job placement rates of our subgrantees demonstrate 
that paid work experience in public and nonprofit agencies (i.e., 
community service employment or work-based training) is an effective 
training mode for low-income seniors with multiple barriers to 
employment. We have found that many of these vulnerable seniors are 
extremely reluctant to participate in traditional classroom training 
programs (especially with younger workers) or on-the-job training with 
private, for-profit employers (which tend to be more demanding). Other 
types of training can be supplements but are not effective replacements 
or substitutes for community service employment with SCSEP-eligible 
persons.

    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                                    

      

</pre></body></html>
